<html>
<title> - DEFINING AND IMPROVING SUCCESS FOR STUDENT VETERANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







 
          DEFINING AND IMPROVING SUCCESS FOR STUDENT VETERANS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         THURSDAY, MAY 8, 2014

                               __________

                           Serial No. 113-67

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
                          U.S. GOVERNMENT PUBLISHING OFFICE
88-978 PDF                         WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
      
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director
                 
                 
                 
                 

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranaking 
MIKE COFFMAN, Colorado                   Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD WENSTRUP, Ohio                  DINA TITUS, Nevada
                                     ANN KIRKPATRICK, Arizona
                                     
                                     
                                     

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.







                            C O N T E N T S

                              ----------                              
                                                                   Page

                         Thursday, May 8, 2014

Defining and Improving Success for Student Veterans..............     1

                           OPENING STATEMENTS

Bill Flores, Chairman............................................     1
Mark Takano, Ranking Member......................................     2

                               WITNESSES

Mr. Michael Dakduk, Vice President of Military and Veterans 
  Affairs, Association of Private Sector Colleges and 
  Universities (APSCU)...........................................     3
    Prepared Statement...........................................    28

Mr. William Hubbard, Vice President of External Affairs, Student 
  Veterans of America (SVA)......................................     5
    Prepared Statement...........................................    32

Mr. Ricardo D. Torres, President and CEO, The National Student 
  Clearinghouse..................................................     7
    Prepared Statement...........................................    43

Letter of Testimonies From: The National Student Clearinghouse...    48
Mr. Thomas W. Ross, President, The University of North Carolina 
  System, On behalf of The American Council on Education (ACE)...     9
    Prepared Statement...........................................    49

Dr. Melissa Vito, Senior Vice President for Student Affairs and 
  Enrollment Management and Vice Provost for Academic Initiatives 
  and Student Success, The University of Arizona.................    10
    Prepared Statement...........................................    54

Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, U.S. Department of Veterans Affairs...............    20
    Prepared Statement...........................................    69

                        STATEMENT FOR THE RECORD

Universal Technical Institute....................................    72

Reserve Officers Association.....................................    80

The American Legion..............................................    86

Northern Arizona University......................................    92


          DEFINING AND IMPROVING SUCCESS FOR STUDENT VETERANS

                              ----------                              


                         Thursday, May 8, 2014

            U. S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Flores 
[chairman of the subcommittee] presiding.
    Present:  Representatives Flores, Takano, Brownley, Titus, 
and Kirkpatrick.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good morning. The subcommittee will come to 
order.
    This morning, we will be examining how to define and 
improve success for student veterans. VA's education and 
training programs have been credited with successfully 
transitioning and readjusting returning servicemembers for 
generations.
    In fact, many historians believe that the passage of the GI 
Bill following World War II kept this country out of a 
recession that very well could have spiraled into another 
depression.
    It has been reported that post World War II GI benefits 
educated 10 million returning veterans, among them 14 Nobel 
Prize and 20 Pulitzer Prize winners, three presidents, a dozen 
senators, and three Supreme Court justices.
    It was through this lens that Congress authorized and 
expanded several education and training programs throughout the 
years, including the newest and by far the most generous 
program to date, the Post-9/11 GI Bill.
    VA estimates that during the next fiscal year, they expect 
to pay out $15 billion in payments to students and schools for 
education and training. While I firmly believe that our 
veterans deserve every penny of these benefits, it has become 
clear to me and to most in the veteran community that there 
simply have not been enough metrics to track the return on 
taxpayer investment through student success.
    Given our Federal Government's fiscal challenges, we owe it 
to hard-working American families to develop, track, monitor, 
and report these metrics.
    I was surprised to learn that up until a few years ago, we 
did not even begin to start tracking graduation rates or many 
other statistics that track student success. That is why I am 
happy to see that there seems to be a growing partnership 
between advocacy groups, students, schools, and VA to truly 
understand the rates of success for our student veterans.
    I look forward to hearing about the Million Records project 
and how this data will positively mold the future for student 
veterans, schools, and the VA's administration of GI Bill 
benefits.
    Why is this important? It is important because this data 
will help inform Congress about student veteran behavior and 
show schools and the VA what type of best practices and 
policies will improve outcomes for student veterans.
    I also want to comment on VA's implementation of the 
Transparency Act from last Congress. I know that the VA created 
the new comparison tool and complaint system on a shoestring 
budget. And while there are many limitations to these tools, I 
think that they have the potential to be a game changer and 
will allow for better transparency for our student veterans.
    I look forward to hearing more about these and other VA 
programs, including the VetSuccess on Campus program during 
today's hearing.
    In the end, it is up to the student to make the right 
choice and to use their hard-earned benefits wisely. It is our 
job to ensure that they have the tools they need to be 
successful and to make the right decisions to help both 
themselves and their families.
    With that, I recognize the ranking member, Mr. Takano, for 
his opening remarks.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Thank you, Mr. Chairman, for holding this 
hearing.
    I want to start by congratulating Student Veterans of 
America for their hard work on the Million Records project that 
has yielded such interesting and useful information.
    This hearing will give us an opportunity to delve deeper 
into the findings from the recently released project done by 
SVA in collaboration with the National Student Clearinghouse 
and the Department of Veterans Affairs.
    This key empirical study compares the academic outcomes of 
student veterans to those of traditional students and 
highlights the need for this information. The findings shed 
light on the amount of time it takes student veterans to 
complete higher education programs, the type of degrees they 
typically attain, and common areas of study.
    SVA will elaborate on the impact of the initiative and how 
lawmakers can use these findings to improve educational 
programs for veterans.
    Today we will hear testimony about how different 
organizations define the success of student veterans and what 
measures are still necessary to help veterans achieve their 
academic goals.
    We will also hear commentary on the implementation of the 
Improving Transparency of Education Opportunities for Veterans 
Act, Public Law 112-249, which is designed to improve a 
veteran's access to information on an institution of higher 
education's accreditation and federal student aid programs.
    Finally, I want to add that Chairman Flores and I have 
introduced H.R. 4248, the Veterans Education Outcomes Act, 
which would require the disaggregation and dissemination of 
data on student veterans with respect to completion rates, 
employment rates, and retention rates of recipients of GI Bill 
funding.
    Thank you, Mr. Chairman, for scheduling this hearing today, 
and I yield back.
    Mr. Flores. I thank the ranking member.
    And I now invite our first panel to the table. Your 
complete written statements will become part of the hearing 
record and each of you will be recognized for five minutes for 
your oral statement.
    We have joining us today Mr. Michael Dakduk, vice president 
of Military and Veterans Affairs, at the Association of Private 
Sector Colleges and Universities; Mr. William Hubbard, vice 
president of External Affairs, for Student Veterans of America.
    Will, I understand that you proposed in the last few days 
and that she said yes. And so congratulations on your upcoming 
nuptials.
    And next we have Mr. Ricardo Torres, president and CEO of 
the National Student Clearinghouse; Mr. Thomas Ross, president 
of North Carolina System, who is here on behalf of the American 
Council on Education; and we have Dr. Melissa Vito, senior vice 
president for Student Affairs and Enrollment Management and 
vice provost for Academic Initiatives and Student Success at 
the University of Arizona.
    I do not know how you get all that on one card, but--so 
thank you all for being here.
    Let's begin with Mr. Dakduk. You are now recognized for 
five minutes.

                  STATEMENT OF MICHAEL DAKDUK

    Mr. Dakduk. Thank you, Mr. Chairman, Ranking Member Takano, 
and Members of the subcommittee, for inviting the Association 
of Private Sector Colleges and Universities or APSCU to testify 
here today.
    I am representing APSCU, our member institutions, their 
faculty, and the nearly four million students who attend 
private sector institutions, including the 325,000 plus 
military veterans that attend our member institutions.
    We appreciate the opportunity to offer our views on the 
successful educational outcomes for returning servicemembers 
and veterans, the VetSuccess program, and the implementation of 
Public Law 112-249.
    To begin, please allow me to offer a short summary of my 
background. I previously served in the marine corps where I 
deployed to Iraq and Afghanistan. I used military tuition 
assistance while in the service and studied on base and onboard 
a navy ship preparing for my second combat deployment.
    After the service, I used the Montgomery GI Bill and other 
Title 4 funds like the Pell Grant. Once the Post-9/11 GI Bill 
passed, I began using that benefit and I am still using that 
benefit today to earn my master's degree.
    In brief, I have a special appreciation for the programs 
discussed in this committee and Congress as a whole when it 
comes to supporting student servicemembers, veterans, and their 
families.
    I would like to begin by discussing outcome measures 
specific to veterans. You will likely hear from the Student 
Veterans of America representative, who will go into more 
detail on the recent results from their Million Records 
program, a comprehensive study of veterans on the Montgomery GI 
Bill and the Post-9/11 GI Bill.
    Given my previous tenure at Student Veterans of America as 
their CEO and my specific efforts on this project, I would like 
to offer a few thoughts I found relevant to this hearing.
    The overall completion rate was approximately 52 percent, 
well above the nontraditional peers. Existing research on post 
World War II and Vietnam veterans indicate that the vast 
majority of veterans complete their post secondary programs. 
Post Vietnam era veterans have GPAs greater than or equal to 
their peers.
    Recent research in 2010 conducted by the Department of 
Veterans Affairs showed that 63 percent of veterans self-
reported as completing their post secondary training. Over half 
of the post-9/11 era respondents said they completed as well.
    While the private nonprofits had the highest completion 
rates, approximately 22 percent later completed at a public or 
proprietary institution. The completion rate for the private 
sector was approximately 45 percent. And private sector 
institutions or the for profits had higher proportions of 
veterans completing degrees faster.
    Overall, the reports suggest that student veterans are 
succeeding at levels comparable to, if not greater than, their 
peers. This refutes previous notions that veterans drop out in 
high numbers.
    We understand that the process for collecting outcomes data 
on student veterans is already underway at the federal level 
given the recent charge by President Obama under Executive 
Order 13607 or the Principles of Excellence, although Congress 
should be keenly aware of the limitations in current federal 
databases like the integrated post secondary education database 
systems or IPEDS.
    As of today, IPEDS does not disaggregate data based on 
military or veteran enrollment. We have provided at APSCU 
recommendations for tracking student outcomes in our proposal 
for the reauthorization of the Higher Education Act.
    Our proposal offers thoughts around five key areas, 
retention and progression rates, completion and return on 
investment, employment of graduates, earnings and/or salary 
gains, and graduate satisfaction.
    We believe the common college completion metrics as 
proposed by the National Governors Association chair's 
initiative provides a good foundation for advancing the 
conversation around student outcomes and success metrics. 
Conceptually this model could be applied to veterans using the 
Post-9/11 GI Bill and other Title 38 funds.
    At a minimum, though, we should appreciate the unique life 
experiences of veterans and servicemembers. They differ 
drastically from the 18-year-old, first-time, full-time college 
student. Current and future attempts to track their academic 
success should be done with an appreciation for their 
exceptional life trajectories.
    And I would like to say a few words on VetSuccess and 
Public Law 112-249. With the VetSuccess on program or VSOC, the 
program provides important access to services and supports to 
veterans on campus. The VetSuccess on Campus is on 94 campuses, 
but only one is located at a private sector institution.
    With Public Law 112-249, our association was an early 
supporter of H.R. 4057, which is now the Public Law, and we 
remain supportive and look forward to working with the VA on 
implementation.
    I look forward to your questions and thoughts. Thank you so 
much, Mr. Chairman and Members of the subcommittee.

    [The prepared statement of Michael Dakduk appears in the 
Appendix]

    Mr. Flores. Thank you for your testimony and thank you for 
your service and thank you for the numerous trips you have made 
to help this committee do its job better.
    Mr. Hubbard, you are recognized for five minutes.

                  STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Thank you, Mr. Chairman. And I appreciate your 
kind words earlier.
    Ranking Member Takano and Members of the subcommittee, 
thank you for inviting Student Veterans of America to submit 
our testimony today. As the premier advocate for student 
veterans and higher education, it is our privilege to share our 
on-the-ground perspective with you this morning.
    As quintessential nontraditional students, student veterans 
face a myriad of challenges that most of our peers in the 
classroom do not. Fortunately, this generation of veterans has 
proven that they are well equipped to succeed.
    Take, for example, Abby Kinch. Abby served as a Chinese 
linguist in the Air Force for more than two years before 
leaving to have her first child. Today Abby attends classes 
part time in pursuit of her Ph.D. at Florida State University 
while caring for two children and having to work full time to 
support her family, a shining example of what student veterans 
can accomplish.
    Since the release of our Million Records project, we have 
the data now, for the first time ever, proving that veterans of 
the post-9/11 generation are broadly succeeding in higher 
education.
    SVA defines student veteran success as: student veterans 
making well-informed educational decisions, achieving personal 
academic goals without incurring student loan debt, and 
securing gainful employment that propels them forward in their 
career aspirations.
    With veterans graduating across the country, we believe 
that the debt burden for some of them will ultimately be the 
single largest inhibiting factor to long-term success. There is 
a common misconception that veterans who go to school on the GI 
Bill have a free ticket, but we know that that is simply not 
true.
    An earned benefit, the GI Bill is, not only not free, but 
for some it does not cover the full cost of their education. As 
the MRP results indicate, some student veterans take longer to 
complete their degree due to being nontraditional students, 
resulting in the need to take out additional loans. Others face 
abusive or misleading practices across sectors of education 
that can result in undue and unnecessary debt burdens.
    We also remain concerned with some of the technical and 
career colleges that claim to offer credentials and 
certifications, whose exams students are not able to sit for at 
the end of their course of study due to a lack of proper 
accreditation. This results in the loss of valuable benefits 
and years of study.
    Beyond the typical understanding of student success and 
higher education, it is important to recognize that due to the 
nature of the Post-9/11 conflicts, traditional definitions of 
time to completion may create a false narrative of student 
veterans. Many of these veterans face multiple deployments that 
interrupted their academic efforts or put their education on 
hold to complete a tour of service.
    When the timeframe is extended out by a few years, these 
completion rates increase significantly. The story here is one 
of persistence as student veterans continue to work towards 
graduation, even if it takes longer than traditional students.
    Using data from the last fiscal year, the Bureau of Labor 
Statistics illustrated the importance of higher education. For 
those who achieved an associate's degree, unemployment dropped 
to 5.4 percent and for those with a bachelor's degree or 
greater, that drops even further to four percent and below.
    Being able to support student veterans so they pursue 
fields that positively impact the economy is a top priority for 
us.
    In fiscal year 2014, the Department of Defense budget 
request was approximately $526 billion. Unfortunately, the 
billions of dollars invested is often lost when servicemembers 
exit the service and reenter civilian fields unable to cover 
the cost of a longer education track required for fields like 
STEM that would capitalize on previous advanced training.
    We believe there may be opportunities to encourage these 
individuals to pursue those rigorous fields of study. Together 
with programs like VA's VSOC and VITAL, the community around 
each student veteran is critical to their success. The 
community acts as a web of support to create an environment 
where all veterans will succeed.
    Schools are recognizing the unique role that this web plays 
in the achievement of student veterans and some have created 
veteran liaison networks. In these networks, schools like 
American University have established various points of contact 
in different offices to provide a holistic support system to 
student veterans. These touch points exist from financial aid 
offices to career offices and beyond.
    Given the new data from our MRP, we see there is more work 
to be done for generations of student veterans to come like 
Abby. Our next phase will seek to build and expand upon the 
findings of the initial research by beginning to explore what 
institutional factors influence student veterans' persistence 
and degree attainment.
    In collaboration with our partners at the Department of 
Veterans Affairs, the National Student Clearinghouse, and the 
Institute of Veterans and Military Families, the end goal of 
this research will be to inform institutions, policymakers, and 
other stakeholders of what works.
    We thank the chairman, the ranking member, and the 
subcommittee Members for your time, attention, and devotion to 
the cause of student veterans and higher education. Thank you.

    [The prepared statement of William Hubbard appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Hubbard.
    Mr. Torres, you are recognized for five minutes.

                 STATEMENT OF RICARDO D. TORRES

    Mr. Torres. Good morning. The National Student 
Clearinghouse is a nonprofit organization which for the past 21 
years has been focused on reducing administrative burdens on 
students and school administrators from Title 4 institutions 
that enroll 96 percent of our Nation's post secondary students.
    The clearinghouse was founded to cost effectively address 
Title 4 student loan program compliance related inefficiencies. 
Participating institutions continuously provide access to 
enrollment and degree information on each of their students 
allowing the clearinghouse to offer student level coverage 
encompassing more than 144 million students and counting.
    Most clearinghouse verification and research services are 
provided to colleges and universities at no charge. Think of us 
as a back office to the university registrar, financial aid 
office, and institutional researcher.
    The clearinghouse performs over one billion secure and 
legally compliant transactions annually. The public/private 
partnership of the clearinghouse can be a model of a way to 
better serve our veterans while reducing the burdens on both 
governments and educational institutions.
    We have recently issued reports that broaden perspectives 
and inform many of the pressing questions about student 
educational pathways and outcomes for states, school districts, 
institutions, and policymakers.
    Through the Million Records project, we were able to help 
inform the Nation about the return in our Federal Government's 
investment of more than $34 billion for veterans' education 
benefits. For the first time for this collaboration among the 
VA, the SVA, and the clearinghouse comprehensive national 
statistics on veterans' educational pathways and outcomes were 
made available.
    The data that we provided highlighted the nontraditional, 
multi-institutional journey of veterans' educational pathways. 
Given the influx of veterans expected into higher education 
over the next few years, it is imperative that we have the 
ability to successfully meet veteran program demands in a way 
that responds to the varied needs of these nontraditional 
students.
    The first opportunity to further assist veterans is 
facilitating entry to colleges and universities. Among the many 
challenges returning veterans face upon their separation from 
service, understanding and managing the complex information 
about their education benefits and multiple aid programs 
available to them stands out.
    They encounter administrative complexities around 
activities such as processing their certificate of eligibility, 
residency verifications, Kicker processing, previous credential 
accumulation, applicability of credentials to degrees, 
remaining benefit on transfers, and branch of service requests 
and inconsistencies.
    These procedures individually all serve a purpose but could 
be greatly simplified while achieving the desired result, a 
timely, benefit-enabled enrollment of the veteran at the 
institution of their choice.
    Our solution here would be twofold. First, employ 
electronic document ordering capability into the e-benefit 
portal, enabling a veteran to securely and privately send their 
benefit summary directly to their chosen institution's 
veterans' administrator and, second, in collaboration with ACE, 
the VA, and the DoD, allow the clearinghouse to be the 
repository of active-duty and veteran competencies, academic 
credits, and credential aggregation, enabling a one-stop data 
home to help facilitate efficient access to higher education 
and a job.
    The next opportunity is supporting veterans' continuous 
enrollment towards their desired educational goals. Re-
mobilizations and employment changes and family circumstances 
mean that a student veteran may take longer to graduate, making 
it harder for them to maintain momentum and focus on their 
goals.
    We need further research like the MRP but expand it to 
determine which veteran support programs both qualitative and 
financial are working best to serve the needs of veterans today 
and which need to be improved or modified. Using the 
collaborative model of the MRP, such a project can be performed 
within one year.
    Second, we need to transform the administrative support 
process to help both the veteran and the school quickly turn 
around critical information related to student progress tied to 
tuition assistance requests and timely aid disbursements.
    Current pain points include repetitive end of semester 
completion status reports, interim add/drops, changing majors, 
determining entitlement balances, uploading of course 
catalogues, and constant reporting outside of normal cycles.
    Leveraging our Title 4 experience, we can enable a 
significant improvement in reporting these requirements, 
thereby allowing school staff to spend more time serving 
students and allowing the veteran to be less focused on 
paperwork and more on class work and homework.
    One available tool is our free open source application, 
Meteor, which provides a platform to aggregate student aid and 
debt both private and public. Meteor connected to the VA 
benefits' database could provide the veteran with an integrated 
view of all aid, debt, and benefits.
    When it comes to improving veterans' success in pursuit of 
their educational goals, eliminating the administrative burdens 
that impede a timely benefit-enabled enrollment and data-
informed support program and service provisioning that sync 
with chosen educational pathways would be a great start.
    Thank you for this great invitation to comment, and I look 
forward to your questions.

    [The prepared statement of Ricardo D. Torres appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Torres.
    Mr. Ross, you are recognized for five minutes.

                  STATEMENT OF THOMAS W. ROSS

    Mr. Ross. Thank you, Mr. Chairman, Members of the 
subcommittee. Thank you for the opportunity to be here today to 
talk about defining and improving academic success for student 
veterans.
    I am Tom Ross. I am president of the University of North 
Carolina System. We enroll more than 220,000 students on 16 
university campuses and employ roughly 50,000 faculty and staff 
across the state. Approximately 8,000 of our current students 
use VA educational benefits to pay for some or all of their 
post secondary education.
    I know that this subcommittee and Chairman Miller have a 
special interest in public institutions of higher education 
extending in-state tuition rates to certain veterans who may 
not qualify under current state law.
    I want to be clear that the UNC System supports and has 
always supported extending in-state tuition to certain veterans 
and their families. We appreciate the leadership shown by 
Chairman Miller and this subcommittee on this issue.
    While North Carolina is not currently among those states 
that offer this benefit, please know that we are aggressively 
with state legislators going to change this situation and we 
are optimistic that that will happen in our short session this 
year.
    As the state's public university, we are working hard to 
enroll, educate, and graduate as many academically prepared 
servicemembers, veterans, and dependents as possible. Our 
motivation is simple. The success of student veterans and their 
families attending UNC institutions is vital to the success of 
the university and our state's future.
    Since the Post-9/11 Bill became law in 2008, a series of 
new and sometimes confusing requirements and initiatives in 
support of student veterans have been introduced by the 
Congress, the President, the Department of Defense, and the 
Department of Veterans Affairs.
    UNC agrees with the spirit and intent behind each 
requirement or program. We hope, however, that federal agencies 
will continue to work together to greater coordinate the 
effort. We also ask to be included on the front end in any new 
federal initiatives as we believe we are well positioned to 
offer perspective and constructive feedback.
    Because adequately serving student veterans requires 
leadership from the top, I have been working with our 16 
university chancellors to implement the recommendations of UNC 
SERVES, a comprehensive report that offers specific action 
steps for improving UNC SERVES veterans and their families.
    Our campuses have established military affairs committees 
and our system periodically convenes the UNC Military Affairs 
Council, a coordinating body, with representatives from every 
campus.
    The UNC Board of Governors is equally engaged. In June of 
2013, the board approved a military student success policy that 
will provide a comprehensive network of services for military 
affiliated students.
    Under the policy, for example, any individual who has 
completed at least two years of cumulative active-duty service 
in the United States Armed Forces will be considered a transfer 
student in the admission's process.
    Last August, the board also established a special committee 
on military affairs with a particular focus on fostering 
success for university student veterans.
    Further, UNC has implemented a uniform data collection 
procedure to ensure that we identify and track the academic 
progress of servicemembers, veterans, spouses, and other 
dependent family members.
    Individual UNC campuses have a long history of working with 
military affiliated students and North Carolina's military 
installations and several have academic advisors located on 
post.
    A number of campuses offer specialized programs of interest 
to veterans and active-duty military servicemembers with 
courses that are structured to accommodate student veterans' 
special needs.
    One of our top priorities is centralizing information 
sharing and we used technology to create a virtual one-stop 
shop where veterans can find reliable and consistent 
information to answer their most common questions.
    We believe that this one-stop shop approach works well for 
the university, for student veterans, and for the military, but 
the primary reason we have taken this approach is because we 
care deeply about the men and women in uniform as well as our 
veterans. We are committed to supporting student veterans 
because of North Carolina's longstanding pride in and support 
of the military.
    The University of North Carolina can and should be a 
natural place of transition. They have earned the educational 
benefit and that benefit can be their ticket to a brighter 
future. It is our duty to make it happen.
    Thank you, Mr. Chairman. This concludes my testimony, and I 
look forward to your questions.

    [The prepared statement of Thomas W. Ross appears in the 
Appendix]

    Mr. Flores. Thank you for your testimony.
    Dr. Vito, you are recognized for five minutes.

                 STATEMENT OF DR. MELISSA VITO

    Dr. Vito. Thank you.
    Chairman Flores, Ranking Member Takano, Representative 
Kirkpatrick, and Members of the committee, I thank you for the 
opportunity to represent President Ann Weaver Hart today with 
testimony about what we are doing at the University of Arizona. 
Thank you.
    I want to focus today on three primary areas, what the 
University of Arizona is doing to engage and support our 
student veterans and how this has evolved, how we measure 
success for our student veterans with graduating rates, 
satisfaction, and meeting their priority needs, and to explore 
further measures and make a few suggestions about what is still 
needed to be done to ensure that all student veterans across 
the United States are accomplishing their academic goals.
    So first a few facts about the University of Arizona. We 
have over 40,000 students of which about over 1,300 are student 
veterans receiving GI benefits. They represent over three 
percent of our total population. Our reservist population is 
small with about 62 reservists.
    Since 2009, our entering cohort of student veterans has 
doubled and we are continuing to see significant growth. 
Females account for about a third of our total student 
population and usage of our main campus vet center has 
increased 31 percent from fall of 2012 to 2013 with over 10,000 
visits in one semester.
    We did not know these numbers in 2008. And at that time, we 
embarked using our nationally recognized disability resource 
center as a vehicle to start to engage focused conversations 
around our returning disabled vets. We also held a national 
roundtable to try to bring the best minds to the table to talk 
about how to support our vets.
    Six years later, we use a constellation of coordinated 
services to support our veterans and they include our vets' 
education and transition services center. We have one large 
facility in our student union. It is large in our center for 
student involvement and leadership and we have simply added one 
more center in our Arizona and health sciences area to support 
our vets in public health, nursing, and our other medical-
related fields.
    Our disability and resource center and adaptive athletics 
programs is a critical partner. The Southern Arizona VA 
Hospital, including providing on campus counseling and other 
support, other medical support critically supports our vets.
    The SERV class, which I will talk a little bit about, 
focuses supportive campus, for credit classes for vets and is 
making a difference and our College of Law Clinic engages the 
University of Arizona law students to support other vets.
    Our vet center is at the core of what we do. It is our 
physical environment that creates sort of a USO type 
environment for students to feel like they can meet other vets. 
The Student Veterans Association is a part of it and it is the 
anchor for our vets on campus.
    That area has partnered with academic areas to create a 
video for faculty to help them better understand our vets. We 
work with admissions to make sure we are reaching out to our 
veterans from the moment that they apply or even think about 
becoming a University of Arizona student.
    Career services has provided a particular focus with 
specific employers like USAA and GEICO and Enterprise who are 
focusing on hiring vets. And we are now working with academic 
partners and the community to develop a coordinated web of 
support for vets that they will be able to understand easily 
anywhere virtually and physically on campus.
    Disability resource center has done a lot of research and 
we have learned a critical point about our vets, that they do 
not view themselves as disabled in the way that the rest of 
society does. They see themselves as needing to make 
adaptations to learn. And we are using this data to inform how 
we support our vets.
    Southern Arizona VA health care I talked about. We have a 
lead psychologist, Dr. Marks, female counselors, nurse 
practitioners, and patient advocates who support our vets on 
campus and off.
    Our SERV program, which was really developed by Dr. Marks 
and a colleague, is a focused for credit course and now 
becoming an array of courses that focuses on resiliency, 
leadership, is taught in cohorts, and so it builds on the 
comradery that vets need, helps them understand what is 
important to learning, including themselves, and how they 
integrate their experiences as military veterans into this 
environment. And it is making a difference. The students who 
complete the SERV program have retention rates of over 90 
percent. So we are looking to try to expand that program.
    As we look at measuring our success and growing our 
success, we know there is more to do. We survey regularly. We 
focus that to use that to meet our needs. And we are now adding 
a staff person in career services to make sure that our vets 
who leave the university and graduate in high numbers will be 
able to find jobs when they leave.
    Thank you.

    [The prepared statement of Dr. Melissa Vito appears in the 
Appendix]

    Mr. Flores. Thank you for your testimony, Dr. Vito.
    And, again, thank the entire panel for your testimony.
    I will now yield myself five minutes for questions.
    The first question is for everyone on the panel. What are 
your thoughts on the VA comparison tool and why do you think 
its functions are valuable for veterans?
    We will just start left to right if we can, Mr. Dakduk.
    Mr. Dakduk. Yes, Mr. Chairman. So I am a proponent of the 
VA comparison tool. I think it needs to be updated with certain 
information when it becomes available, including data on 
completion rates for military veterans specifically, and that 
needs to be included in there.
    But by and large, I think it is a good system. I am glad it 
has been rolled out and I am supportive of it.
    Mr. Flores. Okay. Thank you.
    And by the way, when each of you give your answers, if you 
would tell us what you think needs to be added or changed about 
the tool as well.
    Mr. Hubbard.
    Mr. Hubbard. Thank you, Mr. Chairman.
    Similarly, we think the comparison tool is a fantastic 
opportunity for vets to see an aggregated view of information 
that otherwise would have been unavailable. It would have 
probably taken 20 Ph.D.s to pull all that information together 
otherwise. So have a single view of that is a huge, huge 
support to all student veterans.
    As a first iteration, I think it is an excellent start. I 
think that there is fine tuning that could be done. 
Particularly there is parts of information that I think a lot 
of student veterans would like to see in that view, some of 
which would be supportive of their college search.
    I think being able to reach out to particular universities 
to take the information that they are getting, that they are 
comparing these schools and being able to reach out to vets on 
campus as another opportunity of informing themselves would be 
very important.
    Mr. Flores. Thank you.
    Mr. Torres.
    Mr. Torres. Thank you.
    We actually think that the tool is a breakthrough. It is a 
very important first step in the process. However, there are 
two areas that I think that we could really stand to improve.
    First, it does not calculate an individual veteran's 
entitlement and track what part of the entitlement has been 
used. So it is an estimator, which is great, and it is 
informative. It really does not help the veteran shop easily 
for what school they need to be--how it would apply to 
different institutions that they are thinking about applying 
to.
    The second limitation of the tool is that while it was 
designed to really limit the work burdens on schools, the 
graduation rates that are being used are really not relevant to 
what actually happens at the institutional level.
    Over a third of students overall in the country transfer 
from one school to another and, therefore, the completion rates 
that are in the IPEDS numbers really do not bear any 
resemblance to what actually is happening on there.
    I believe my colleagues to the left could probably comment 
on how they leverage information around transfers at their own 
institutions.
    But I believe that is a second step in terms of trying to 
come up with a better way so that a veteran looking at their 
pathways, which is the other piece, right, because the 
completion rates include first-time, full-time students, which 
is not what the veteran is, right? They are older and you have 
to look at what are the odds of success for people who look 
like them and what is their odds and by types of institutions.
    So I think further segmentation is required, but I think, 
again, it is a great start. But I think like everything else, I 
think we need to continue to improve where we are headed with 
the tool.
    Mr. Flores. Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman.
    Let me first say that I think transparency is incredibly 
important to all of our students and particularly to veterans. 
They deserve to get as much information as they can when they 
are making college decisions. And this tool, I think, is 
helpful in that regard.
    I think Mr. Torres points out very importantly that the 
information that is in there needs to be accurate. And as I 
said in my testimony, under our new policies, if you have had 
two years in the military, you will come to us as a transfer 
student.
    The military will be the transferring institution, that is 
the way we will count it, as a way to enable students a clear 
pathway into our institutions. If you do that, their data does 
not count because they are transfer students.
    And so I think we have got to be sure the data is right. 
You know, we have a dashboard that we have recently put up that 
tracks all sorts of metrics and information on success, student 
success, and we want to be sure what we put there is the most 
accurate information possible.
    So, you know, I applaud the tool. I think it is a helpful 
step. It can be improved, and we are happy to work with you to 
do that.
    Mr. Flores. Dr. Vito.
    Dr. Vito. Thank you.
    In my 27 seconds, I would like to support the comments of 
Mr. Torres and Mr. Ross big time. I think it is a great first 
step and I think focusing on the data and the multiple pathways 
and then making it easy for vets to be able to compare 
different institutions apples to apples in ways that will be 
clear and easy.
    I think that we sometimes forget how easy it is to do 
things like that in other settings, and we need to use that 
same model here. Thank you.
    Mr. Flores. Well, thank each of you for your testimony.
    And I want to say that some of the recommendations we saw 
in your verbal and your written testimony were outstanding, and 
thank you for that.
    Thank you for the participation in the Million Records 
project. That was also very helpful, provides great data.
    I now recognize the ranking member, Mr. Takano, for five 
minutes for his questions.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Ross, I want to congratulate the University of North 
Carolina and the intention to comply with the role of providing 
veterans with in-state tuition for the University of North 
Carolina.
    Dr. Vito, is some effort going on in Arizona?
    Dr. Vito. Yes. Actually, I was just writing a note to 
myself that we do virtually the same thing.
    Mr. Takano. Okay. Very good. Thank you.
    Dr. Vito. You bet.
    Mr. Takano. Mr. Dakduk, in line with the spirit of what has 
passed through our committee and the bill that we passed 
through the House to require that in-state tuition be offered 
to veterans in respective states at state universities, are 
your members lowering tuition for veterans and has your 
association urged that your members do that?
    Mr. Dakduk. Absolutely. I think you can look at our best 
practices guide that I am happy to share with you, Congressman 
Takano, and the rest of the Members of the subcommittee.
    One of the things you will find at private sector 
institutions is how many of them buy into the Yellow Ribbon 
program and how many of them buy into the Yellow Ribbon program 
at the full unlimited rate for the unlimited number of student 
veterans that want to attend that.
    Mr. Takano. But have they lowered tuition for veterans 
commensurate with what the public universities are doing?
    Mr. Dakduk. I am happy to point you to a number of our 
member institutions----
    Mr. Takano. Okay. I would be interested----
    Mr. Dakduk [continuing]. Where veterans can go full time at 
virtually a zero rate unless they choose to pull out Title 4 
funds.
    Mr. Takano. Well, I have not heard that you said they are 
actually lowering the rate, but I would be interested in that 
information. I am not convinced that the for profit sector is 
really serving our veterans.
    Can you tell me the credits that veterans earn, are they 
generally transferable to regionally accredited schools?
    Mr. Dakduk. That is a systemic problem throughout all of 
higher education, the transferability of military credits and 
experience. And it is an issue that we have been looking at.
    Mr. Takano. But the credits that veterans earn at your 
member schools which are generally nationally accredited, to my 
understanding, but my understanding is that these credits are 
not transferable to universities such as the University of 
North Carolina who are regionally accredited. Is that true?
    Mr. Dakduk. It depends. But I would also offer this. We 
might want to talk to the institutions on why they are not 
receiving those credits or accepting them. I think that is one 
of the big issues I have called for while I am here at APSCU 
and when I was at Student Veterans of America.
    Mr. Takano. But we also have the question of why aren't 
your members seeking regional or obtaining regional 
accreditation; do we not?
    Mr. Dakduk. Well, it is different. It is different for 
different types of programs and different types of 
institutions. Remember nationally accredited and regional 
accreditation is recognized by the Department of Education and 
this Administration.
    Mr. Takano. Well, that is another separate issue. But the 
fact remains that the credits are not fungible and many 
students will enroll in these programs and do not know that 
they cannot transfer the credits they earn at your member 
institutions to the state universities and university systems, 
correct?
    Mr. Dakduk. Our association and our member institutions are 
committed to consumer education and we want to make sure that 
we give this information to student veterans, student 
servicemembers, and their families to make sure they make the 
best choice when they choose an institution and understand 
transferability of military credits.
    Mr. Takano. Well, thank you. Thank you.
    Mr. Hubbard, to what extent did your research project look 
at the success of certificate and degree programs actually 
leading to employment?
    Mr. Hubbard. Thank you, Congressman Takano, for the 
question.
    We did look at that very specifically. It was not 
differentiated from any of the other degrees. Our research 
looked at everything from certificates all the way up through 
Ph.D.s and everything in between.
    Mr. Takano. We have introduced legislation to require 
schools to disaggregate and disseminate data on student 
veterans.
    Do you think it would be helpful to VSOs like SVA, the VA, 
prospective students for this disaggregation and dissemination?
    Mr. Hubbard. Without question.
    Mr. Takano. Great. Thank you.
    Mr. Chairman, I yield back.
    Mr. Flores. Thank you, Mr. Takano.
    Mrs. Kirkpatrick, you are recognized for five minutes for 
questions.
    Mrs. Kirkpatrick. Thank you, Chairman, for having this 
important hearing.
    Thank you, Ranking Member Takano.
    I want to thank all of our witnesses for your testimony 
today and extend a special thanks to President Ann Hart Weaver 
at the University of Arizona and to you, Dr. Vito, for your 
testimony and the great work you are doing for our veterans.
    I am extremely proud to say that my alma mater, the 
University of Arizona, has demonstrated a strong commitment to 
helping its student veterans achieve success. And I am 
particularly proud of the university's number one ranked 
disability resource center and the model it has developed for 
integrating disabled student veterans into the campus 
community.
    I would also like to thank Northern Arizona University in 
Flagstaff, Arizona where I live for submitting a statement for 
this hearing today. Northern Arizona University is nationally 
recognized as a leader in higher education services and support 
for its student veterans.
    We know that a veteran's first year is the most critical 
for a successful transition from military to student life, and 
Northern Arizona University is leading the way by introducing 
an innovative transition program this fall that is tailored to 
the needs of its student veterans.
    Great ideas come from Arizona and I believe this committee 
has already learned a great deal from our University of Arizona 
witness and from the Northern Arizona statement for the record.
    I look forward to learning more about what University of 
Arizona and Northern Arizona University are doing and hoping we 
can use their best practices to ensure that our student 
veterans are equipped for success across the country.
    And I do not have any questions. I thank you again for your 
great testimony, and I yield back.
    Mr. Flores. Thank you, Congresswoman Kirkpatrick.
    Ms. Brownley, you are recognized for five minutes.
    Ms. Brownley. Thank you, Mr. Chairman.
    And I wanted to just follow-up on Ranking Member Takano's 
questioning around the in-state tuition issue. And I heard 
several of you testify about certain veterans getting in-state 
tuition and I just wanted to get a further clarification on 
what that means exactly.
    Mr. Ross. We are in the process now of working with our 
legislature to determine exactly who would qualify and who 
would not. What we have asked them to consider is those 
veterans that have separated in our state and done so within a 
certain period of time.
    Obviously there is a cost to the state for the 
differential, and so we are encouraging them to make this as 
broad as possible, understanding the fiscal cost of it and the 
effect on our budget.
    But we think the return for the state in the long term 
makes this a good investment, and the reason we feel that way 
is we have every indication from employers that veterans that 
come out of our institutions make some of their best employees. 
They have great work ethics. They are disciplined. They come 
with a can-do attitude. And so we believe that our employers 
will benefit from these individuals.
    We have a history in North Carolina of being able to 
attract some of the best and brightest from around the country 
because we have some great educational institutions public and 
private, and many of them stay in our state, which helps 
increase our educational attainment, which we believe we are 
going to need to do to meet the workforce demands of the 
future.
    So attracting veterans to our institutions, keeping them in 
our state is a good investment, we believe, for North Carolina. 
And so we are working with our legislature to iron out those 
particular details, but we believe they are very receptive to 
the idea of doing as much as they possibly can for as many 
veterans as possible.
    Ms. Brownley. Dr. Vito.
    Dr. Vito. And in Arizona, we are similar actually to what 
Mr. Ross had stated. We do ask that our veterans demonstrate an 
Arizona driver's license, in-state lease, and some evidence of 
actually being in Arizona outside of service, but those vets 
are able to receive in-state tuition.
    Ms. Brownley. Thank you.
    Mr. Hubbard, in terms of your good work, I will say, and in 
terms of collecting information on the Million Records project, 
did you look at all or evaluate the VRAP program and, you know, 
to determine, to look at that to see if it is successful, how 
it is working at all?
    Mr. Hubbard. So for our first cut at the Million Records 
project, we did not. This research was to understand a baseline 
of how veterans are faring in higher education. It was just 
simply too difficult to capture all of that data and have an 
accurate clean methodology.
    So that is something that we have looked at, including 
further study, and we have recommended to this committee 
previously to encourage further data. There has been a lot of 
great legislation that Representative Takano and also the 
chairman have put out there and we encourage more of that. I 
think in future studies, that will be something we will be 
looking at.
    Ms. Brownley. Thank you.
    And I have another minute here. I wanted to give a shout 
out to a university in my district, California State University 
at Channel Islands. They have a wonderful program for veterans 
and I think part of the success of the program is they have 
sort of a buddy system or kind of a peer-to-peer network, so 
veterans really partnering with other veterans to make sure 
that they are successful in school.
    And, Dr. Vito, you talked about a coordinated web of 
support that you are building at your university. And I am just 
wondering, it seems as though at least anecdotally there are 
better outcomes. The retention rate is better when programs 
like this exist within an educational institution and was 
wondering if you could make a comment.
    Dr. Vito. Absolutely true. Thank you for your question, 
Congresswoman.
    What we find and that is our student vet center acts as 
that peer-to-peer place and vets do work with each other. They 
connect with each other. We hire vets. It is staffed by vets 
who are there on student work study and supporting other vets.
    Part of the power of our SERV program, and those are our 
courses for credit and actually we are developing a resiliency 
minor as an outgrowth of this, is that students go into those 
courses as part of a cohort to build comradery, to have each 
other, and to process that.
    So we see the power of working together as critically 
important. In the military, that is such a part of the 
experience and then you come to a large campus and the sense of 
isolation and culture clash is so overwhelming that making sure 
that intentionally we create those opportunities is fundamental 
to the success of our vets.
    Ms. Brownley. Thank you very much.
    Dr. Vito. Thank you.
    Ms. Brownley. And, Mr. Chair, I yield back.
    Mr. Flores. Congresswoman Brownley, thank you.
    And, Ms. Titus, you are recognized for five minutes for 
questions.
    Ms. Titus. Thank you, Mr. Chairman.
    I appreciate what you are doing on your two campuses to 
support veterans. I would like to focus a little more 
specifically on the STEM fields. I hear often from businesses 
that we lack people in this country trained in the STEM fields, 
and I think that veterans are really in position to take up 
that slack because many of them have gotten training while in 
service in medical and technical fields.
    But these degrees often require more money because of lab 
courses and things and often take longer because there are more 
requirements.
    I have got a bill that I am working on that would set up 
kind of a bridge program for veterans that would help through 
the GI Bill make up in those two areas.
    I wondered if you all would comment on it from the 
standpoint of institutions and maybe you from the standpoint of 
a student.
    Mr. Ross. Thank you. Yes, ma'am.
    You know, I think that you are exactly right, that the STEM 
fields are one that we are all concerned about. And I would say 
just a couple things.
    One is if you look at the data for our veteran students, it 
is more heavily weighted, frankly, to STEM fields, particularly 
in engineering because of some of their prior training and 
experience.
    You know, I can tell you quickly one story about a young 
man who is graduating this week from Western Carolina 
University who entered NC State, spent two years, volunteered, 
became a medic, was deployed to Iraq, came back from Iraq as a 
medic, and entered Western Carolina because of their emergency 
medical program. He got there and got interested in biology and 
became a biology major and is graduating this spring, coming to 
Washington for a very highly selective post doc at the National 
Institute of Health.
    So veterans can find their way and be incredibly successful 
in the STEM fields, but it does require some extra effort. And 
so anything the Congress can do to assist that, I think, would 
pay dividends for the country and for certainly the veterans.
    Ms. Titus. Thank you.
    Ms. Vito. Thank you, Congresswoman. It is a great question.
    At the University of Arizona, we see our top three majors 
as pre business, actually applied science, and international 
service. And so science is our front and center and they are 
front and center at the University of Arizona.
    I think that we have some specific programs that target 
student deficiencies around math to try to help students bridge 
in to be successful and the type of work that you have 
described that would acknowledge maybe a lengthened academic 
path without financial penalties could be really important to 
encouraging students getting into STEM.
    I know the report that was done with the clearinghouse and 
Student Veterans Association also made a couple of 
recommendations about how we might grow veterans' participation 
in STEM. And so I think that we are fully supportive, but 
academic preparation to succeed in the STEM fields is really 
important and making sure that that is built in to whatever we 
do, I think, would be a critical component.
    Ms. Titus. Do you look at any equivalency between certain 
college credits and experience in the military so that you do 
not have to retake a course that you have already been doing in 
the field?
    Ms. Vito. At University of Arizona, our branch campus 
University of Arizona South is able to accept fully all credit 
earned through the military. University of Arizona has a more 
deliberate analysis that is done about what transfers and what 
does not transfer.
    And so I would acknowledge that it may not be a perfect 
process and your question raises a larger national discussion.
    Mr. Ross. It does, and we are certainly involved in that 
discussion and looking hard at prior learning and how it can be 
transferred to credit. I mean, if you have got somebody coming 
back from Iraq and they know how to speak Urdu, maybe we should 
be giving them credit for it.
    But we have developed a program that we are near kicking 
off which we think is exciting that allows medics to enter into 
a physician's assistant program at our medical school. And we 
are excited that that will enable them to use their prior 
experiences and what they have learned in the military and move 
through that program more quickly.
    So that is the kind of thing we need to think more about, 
and I think with encouragement, we certainly want to do that.
    Ms. Titus. Thank you.
    Mr. Hubbard.
    Mr. Hubbard. I think you make an excellence point, 
Congresswoman. As the Department of Defense invests billions of 
dollars in STEM fields, STEM related MOSes, technical fields 
that could be taken advantage of as they exit the military, 
that investment is completely lost, it evaporates as 
individuals exit the service and then go on to, say, another 
major that is unrelated.
    Taking advantage of that investment and reinvesting it in 
the economy by encouraging individuals to go into the STEM 
fields is absolutely a top priority for Student Veterans of 
America.
    I think as we look at this, we have seen across the board 
many students would pursue those degrees. They simply cannot 
afford to and that is a major problem for a lot of these 
student vets.
    Ms. Titus. Yes. Thank you very much, Mr. Chairman.
    Mr. Flores. Thank you, Ms. Titus.
    A couple of closing comments before we excuse the panel and 
move on to the next panel.
    Mr. Ross, I was pleased to learn that your governor on 
Tuesday of this week has announced his support for in-state 
tuition in North Carolina and so we hope that you and the 
governor are successful with your General Assembly.
    Also, there was some dialogue before about for profit 
schools and I would note that there is no lack of regulation of 
the education industry, and that is all the education, public, 
private, and for profit.
    The VA, the Consumer Federal Protection Bureau, the Federal 
Trade Commission, U.S. Department of Education, State Attorneys 
General, State licensing agencies, State departments of 
education, State approving agencies, and accrediting 
associations all have a responsibility to monitor all sections 
of higher education.
    If there is a systemic problem, which I do not believe 
there is, the only conclusion I can draw is that multiple 
government agencies at all levels have failed to monitor the 
education industry and enforce the statutes and regulations now 
in place.
    With that, we will conclude the participation of this 
panel. Mr. Dakduk and Mr. Hubbard, thank you for your service, 
thank all of you for your support of our Nation's veterans, one 
of our most valuable resources, and thank you in particular for 
the innovative ideas that you shared with us today. You are now 
excused.
    On our second panel, we welcome back a frequent flyer to 
this subcommittee. Mr. Curtis L. Coy is the deputy under 
secretary for Economic Opportunity at the U.S. Department of 
Veterans Affairs.
    Thank you for joining us again, Mr. Coy. You are now 
recognized for five minutes whenever you get settled in.

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Well, good morning, Mr. Chairman, Ranking Member 
Takano, and other Members of the subcommittee.
    I am pleased to be here today to discuss the Department of 
Veterans Affairs' efforts to help veterans achieve success in 
their academic and educational endeavors.
    VA is committed to ensuring that our Nation's veterans, 
servicemembers, reservists, and qualifying dependents receiving 
VA education benefits have access to high-quality educational 
opportunities that will enhance their ability to meet their 
academic and career objectives.
    VA's VetSuccess on Campus program provides veteran students 
seamless access to VA benefits and services and supports their 
successful integration on college and university campuses.
    In fiscal year 2013, we grew the program from 32 campuses 
to 94 with a total of 79 vocational rehabilitation counselors 
across the country.
    I visited our VSOC site at Florida State University and 
Tallahassee Community College just last week. I was impressed 
with both administrations and particularly the president's 
direct involvement with respect to their veteran programs.
    We are continuing our efforts to enhance support to 
veterans on campus across a wide range of benefits and 
services. VSOC counselors also collaborate with VA medical 
centers and campus counseling centers to ensure that students 
are aware of mental health services and receive referrals as 
necessary to support their needs.
    Recently we developed a pilot program with the Corporation 
of National and Community Service for AmeriCorps' volunteers at 
eight of our VSOC campuses.
    Public Law 112-249 was enacted in January 2013. It enhances 
and complements the provisions of the executive order, requires 
VA to develop a comprehensive policy to improve outreach and 
transparency to veterans and servicemembers. We have made 
significant progress in implementing both the law and the 
executive order.
    Some of those highlights include we have partnered with 
Department of Education, Defense, Consumer Protection Finance 
Bureau, Federal Trade Commission, Department of Justice, and 
the National Association of State Approving Agencies.
    We submitted a report to Congress in April of 2013 as 
required by the law. Currently piloting an online assessment 
tool called CareerScope. We launched a GI Bill comparison tool 
in February to help veterans become informed post secondary 
education consumers. As of yesterday, over 106,000 unique 
visitors have used the tool and looked at 250,000 different 
schools.
    We launched the GI feedback system which centralized online 
reporting for veterans, servicemembers, and reservists to 
report negative experiences with educational institutions. We 
launched that the end of January of this year. As of this past 
Monday, there have been over 18,000 who have visited the site, 
4,500 have logged into the system, and 1,400 have submitted 
complaints or feedback.
    In March, we began transmitting those complaints to FTC's 
consumer sentinel database where they are accessible by law 
enforcement agencies.
    We have completed several other activities, for example, 
recently updating the school certifying official handbook, 
published student outcome measure definitions on education's 
college navigator, registered the GI Bill trademark, and began 
enforcing the legal terms of that trademark.
    We also established an agreement with SVA to create the new 
education completion database for Post-9/11 GI Bill and 
Montgomery GI Bill programs.
    VA also established agreement with the National Student 
Clearinghouse to match VA records and provide graduation and 
program completion.
    In March, as you know, this year, SVA released their 
Million Records project report. The results of the study show 
that continued research on veteran graduation rates is 
imperative.
    As of this summer, we will mark the fifth anniversary of 
the Post-9/11 GI Bill, an important milestone certainly, but we 
believe that the success of the program is more longitudinal.
    Eligible veterans have 15 years to use their richly earned 
benefits. We hope to have some preliminary success outcomes 
late this summer or early fall. We have some already on 
persistence data.
    VA has worked with key stakeholders to ensure veterans are 
utilizing their education benefits efficiently and effectively. 
We will continue our efforts to ensure that veterans are 
informed consumers and schools meet their obligations in 
providing education and training to this Nation's next greatest 
generation.
    Mr. Chairman, Ranking Member Takano, and Members, we are 
rowing hard. This concludes my statement. I would be happy to 
answer any questions that you or other Members of the 
subcommittee may have.

    [The prepared statement of Curtis L. Coy appears in the 
Appendix]

    Mr. Flores. Mr. Coy, thank you for your testimony. Thank 
you for your service to our Nation's veterans.
    And I will recognize myself for five minutes for questions.
    Share with us what feedback you have received so far about 
CareerScope and when you are doing that, tell me about what 
students are saying about whether it is helpful in finding a 
school and then let's walk forward and tell me what your plans 
are for future functionality and tweaks and improvements and so 
forth.
    Mr. Coy. Yes, sir, Mr. Chairman. I just want to be clear. 
Are you talking the CareerScope tool or the comparison tool?
    Mr. Flores. CareerScope tool.
    Mr. Coy. The CareerScope tool. The CareerScope tool is an 
assessment device for students or for anybody to go in and use 
it. We have had about 10,000 people use it. It is also used by 
our Vocational Rehabilitation & Employment counselors across 
the country as well.
    The feedback we have received so far has been good. It is a 
useful tool. It certainly does not solve all things, but it 
gives that individual a direction to head as they go forward in 
their school selection.
    Mr. Flores. Okay. And can you go into some of the funding 
issues that you ran into in the development of the CareerScope 
tool, the complaint system, and the comparison tool, all three 
of the systems that you talked about in your testimony.
    Mr. Coy. Just to understand, what issues we had with 
funding?
    Mr. Flores. Yes, sir.
    Mr. Coy. Well, these were all tools that were as a result 
of the Public Law, the President's executive order, and 
initiatives that we were doing within VA as well.
    With respect to the complaint tool or feedback tool, we 
leverage what the Department of Defense did. We took their 
system. We modified with the contractor that developed their 
tool and we modified it for the VA. So it was a minimal 
expense, if you will, for that.
    For the comparison tool, it was sort of an in-house effort 
and we strung that together with, my terms, duct tape and 
chicken wire and put it together. It is a fantastic success 
story. We took data from over 23 disparate sites and it is now 
at one place.
    As far as the CareerScope tool, that is a commercial off-
the-shelf item. What we did, our investment in that, was put it 
on the site, pay the licensing fees, and actually doing the 
market survey with respect to that.
    Mr. Flores. Okay. And by the way, thanks for your help with 
the Million Records project. Appreciate the VA's involvement 
with that.
    Mr. Coy. Yes, sir.
    Mr. Flores. How does the VA define success and what are the 
barriers that you think are still in place when it comes to 
veterans accessing a quality education and the assistance they 
need while pursuing their degrees?
    Mr. Coy. We are looking at a lot of different success 
factors as we go forward. Certainly defining success is a 
challenge as you might imagine.
    You have heard testimony earlier here today as well as 
prior testimony that veterans are nontraditional students. And 
so what we find in nontraditional students is many of them 
start full time, then they go part time, then they stop and say 
when the kids get older, you know, I will go back to school. 
And so defining what that success is is hard.
    We are doing a number of different things. We currently 
have seven measures that we hope to be rolling out in the next 
several months. One is retention rate. That measures the 
student attendance at the same institution over time.
    There is persistence rate and what that does is it measures 
veteran students full time and part time across the board. And 
I have some preliminary numbers that are interesting.
    We also are measuring the transfer rate. We are measuring 
graduation rates, certificate completion, the number of years 
to complete a degree or certificate, and the number of 
institutions veterans attend to complete their degree or 
certificate.
    As you heard this morning, the current IPEDS graduation 
rate tool is over a six-year time frame, but it does not allow 
for any transfer in or out. So that is certainly a challenge 
because no matter what we do, it is going to want to be 
compared to one or another.
    Interestingly as I go out and talk to many folks, I suggest 
to people that there were 16 million veterans who served in 
World War II. Eight million of them went to school on the GI 
Bill and, as we all know, that spawned the greatest generation.
    But when you ask what the graduation rate was, how many 
certificate completions, and any of those kinds of things, 
there has never been any of that sort of information because it 
is hard. And so defining the success outcomes, we are going to 
put this on the table, the Million Records project, put a stick 
in the ground. We are also doing similar type things.
    The other issue or concern that makes it a little bit hard 
is that schools input this data. So the data sometimes is only 
as good as the information that we get out.
    Interestingly, though, is as we go forward with the 
comparison tool and we start publishing some of that data on 
there, what we will find is schools and institutions sort of 
center themselves.
    For example, we went out before we launched the tool and we 
sent out all this information and said would you validate this, 
tell us. There were 400 schools within a week that said, no, we 
want to sign up for the Principles of Excellence as well. We 
did not know anything about it.
    So publishing those things, I think, will be a great 
opportunity for schools to center themselves.
    Mr. Flores. Okay. Thank you, Mr. Coy.
    And I am sorry to my colleagues for going over. I will give 
you all an extra minute and 15 seconds each if you would like 
it.
    So I now recognize the ranking member, Mr. Takano, for six 
minutes and 15 seconds.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Coy, thank you to the VA for creating these online 
tools for our veterans.
    With regard to the comparison tool, do you think that 
knowledge about default rates, student loan default rates would 
be relevant for a prospective student to be able to make a 
judgment about the potential for success at a particular 
institution?
    Mr. Coy. Yes, sir, I do, and it is on the comparison tool.
    Mr. Takano. Oh, so the comparison tool does make clear to 
the veteran what percentage or just what the default rates are 
at a particular institution?
    Mr. Coy. Yes, sir, it does. But I just want to make sure 
that I clarify that. That is for the school itself. It is not 
veteran specific. So when we say the default rate is X, it is 
for all the school, not just veterans.
    Mr. Takano. Okay. Is there----
    Mr. Coy. It is not veteran specific.
    Mr. Takano. Is there a possibility of being able to make 
that comparison possible in the future?
    Mr. Coy. Anything is possible, sir. The issue is that we 
get that loan default rate from the Department of Education and 
so we would essentially almost have to set up a whole new 
cohort for them to help us track that.
    Mr. Takano. Okay. Thank you for letting me know that.
    Are prospective students able to figure out whether the 
institution is regionally or nationally accredited?
    Mr. Coy. That is not currently on the tool. However, comma, 
we do for each school that is looked up have a link to the 
Department of Education's college navigator. And if you were to 
click on that link and go into this huge pile of information 
that is on college navigator, you would be able to find that.
    Mr. Takano. Do you think making it very user friendly for 
the student to be able--I mean, I think that is an important 
consumer information to make that user friendly. Is that a goal 
of yours to make it more clear and easy for the student to 
discern whether the institution that they are looking at is 
nationally or regionally accredited?
    Mr. Coy. The short answer is, yes, sir, I do. The longer 
answer, if I may, is the issue of whether it is regionally or 
nationally accredited, and I think I understand why, but to 
making sure that the veteran understands what that means.
    Mr. Takano. Yes.
    Mr. Coy. That is the bigger issue. So rather than just tell 
somebody this is a regional or national accredited institution, 
giving them the perspective on what that means, that is a 
little bit of a bigger challenge.
    Mr. Takano. But you view it as an important piece of 
consumer information that the student should understand?
    Mr. Coy. I would suggest, sir, that probably, and this is 
my opinion and the opinion that we found in a number of 
different instances, and that is on the comparison tool, we 
list whether that school is a private university, a for profit 
university, or a public university. So it labels that and I 
think that in some way touches on the accreditation issue.
    Mr. Takano. In some way, but many students may not 
understand which institutions are regionally or nationally 
accredited and what that might mean in terms of the fungibility 
of those credits.
    Let's switch over to the complaint tool that you have. What 
are the most common complaints you have heard that you have 
received through the system so far?
    Mr. Coy. The top issues that we have--and if you were to 
look at the tool, there are buttons that you can push, and then 
you go into sort of a verbal explanation--the top three buttons 
that we have received back is financial issues, quality of 
education, and then there is a button for other and that comes 
in number three.
    Mr. Takano. Okay. How do you ensure that the system is not 
being flooded with false complaints?
    Mr. Coy. We do not other than we would know. And the reason 
we know is the goodness of the tool is that the front end of it 
is automated, in other words, that you can go in and--but the 
back end, meaning when somebody hits submit, every single one 
of those complaints is reviewed by our staff.
    And the decision and determination is made that probably 
about half of the, quote, complaints are on benefits issues 
that VA controls. For example, my housing allowance check is 
late or why did it go from $10.00 to $20.00 or vice versa. And 
we typically resolve those issues up front.
    The other issues that come in are sent directly to the 
school and the school has 90 days to complete and respond back 
to us. And so we have not seen, if you will, the system being 
flooded with false complaints. We have seen there have been 
some complaints that has driven to direct about 25 risk-based 
reviews of schools that we have gotten complaints on.
    Mr. Takano. Thank you.
    My time has gone over. I yield back.
    Mr. Coy. Yes, sir.
    Mr. Flores. Thank you, Mr. Takano.
    Ms. Brownley, you are recognized for questions.
    Ms. Brownley. Thank you, Mr. Chairman.
    And thank you, Mr. Coy.
    You were talking in your testimony about the challenges of 
defining success and you talked about the seven measures, I 
think, that you are going to roll out.
    So when is this rollout going to occur?
    Mr. Coy. We expect these measures to be available sometime 
in the academic year 2015 which begins in August of this year 
and ends 31 July of next year. So trying to give us as much 
wiggle room as possible, we said we are going to have these 
things out.
    I am personally hoping that we will begin having some of 
the initial results late summer, early fall. We already have 
some of those results that are interesting, for example, 
persistence rates.
    Ms. Brownley. So in all of these areas, you will be 
collecting data and input across the board for all veterans who 
are enrolled in school?
    Mr. Coy. Yes, ma'am. And much of that data schools are 
reporting now and now it is a matter of getting the information 
and sort of making sure that we are reporting it accurately.
    Ms. Brownley. And in terms of the measurements, did you 
ever consider an additional measure which is to say did the 
veteran find employment and gainfully employed and if the 
veteran majored in let's say business administration, were they 
able to go and find a job in the field of their interest?
    Mr. Coy. Yes, ma'am, we have considered that. We are 
looking at that. We have included a question similar to that in 
our voice of the veteran survey. That is being mailed out to 
about 26,000 veterans as we speak. It is a survey that is being 
done by J.D. Power and we hope to have those results in the 
fall of this year as well.
    Clearly a challenge, but we have talked with a few other 
government agencies in terms of being able to get that 
information with respect to employment and be able to do that. 
Most of the, if you will, education versus employment would 
initially come in terms of, if you will, dollars. In other 
words, I make $10.00 a year now and after your degree or your 
training or your certificate completion, how much do you make 
the following year, if you will.
    Ms. Brownley. And so these measurements and the collection 
of data then, you know, how will you utilize that as you get 
the results to sort of be hopefully in a model of continuous 
improvement and a model of always being focused on improving 
success?
    Mr. Coy. The challenge of this data is that you almost have 
to look at it by year and then you look at it by various 
aspects. So, for example, we have persistence data and we break 
it down into essentially three categories.
    In other words, when you start in a certain year, how many 
started full time and then came back the next year full time, 
the next year full time, the next year full time. Then how many 
started part time, came back part time, came back part time. 
Then how many came back--started either way, full time, part 
time, and stayed going to school.
    Then you have that by year. We started the Post-9/11 GI 
Bill in August of 2009. So now we are getting data for 2009, 
2010, and then we have, if you will, the next year which is 
2010 and their next four years.
    And the challenge, as I stated in my oral statement, was we 
have to be looking at this over the course of 15 years because 
that is what a veteran has.
    In addition to that persistence data, you can also begin 
slicing it as how many of them are going after a bachelor's 
degree, an associate's degree, a certificate, and so the list 
goes on.
    Ms. Brownley. Thank you.
    And I will yield back.
    Mr. Flores. Thank you, Ms. Brownley.
    Ms. Titus, you are recognized for five minutes.
    Ms. Titus. Thank you.
    Just following up on Ms. Brownley's comments, I appreciate 
that you all are doing this massive study and it is over a 20-
year period. I understood it, but I hope we do not wait until 
the 20 years is up when you get all the data to come up with 
some suggestions and some improvements because that often tends 
to be the case.
    Also, sometimes the right hand does not know what the left 
hand is doing and we have different programs and different 
departments or agencies who might be working on similar kinds 
of efforts.
    I have a bill with Representative Cook to do a similar kind 
of study of the Department of Labor's Veterans' Employment and 
Training Service, so I know they have an effort too.
    I wonder if you could talk about how you all coordinate or 
if you see any ability for us to use the results from the two 
studies to just provide a better, more effective way for our 
veterans to transition into the workplace.
    Mr. Coy. Thank you, Congresswoman. That is a great 
question.
    And we work with our colleagues at Department of Labor, 
VETS often. In fact, I was over at the Labor building just last 
week, I believe, and I commented I should just get a badge 
because I am over there.
    We started our collaboration, our significant collaboration 
or at least I did with the VRAP program. As you know, we 
partnered with the Department of Labor on that program. We work 
with the Department of Labor and the VETS program a lot.
    When we start talking about our employment projects and 
programs that we are doing, as you know, we recently launched a 
new employment center on e-benefits, we worked with the 
Department of Labor across the board to develop that employment 
center.
    We very much coexist with them. They have over 2,500 
American job centers with well over 2,500 DVOPs and LVERs in 
those American job centers. We believe that that is a wonderful 
tool for veterans to be able to leverage and use when they 
start looking at their employment goals as well.
    So there is really I do not think any project that we have 
undertaken in the last three years that has not involved our 
colleagues at the Department of Labor.
    Ms. Titus. Well, that is good to know. And I hope that we 
can move forward with the study of their program like the one 
that you are doing so we can be sure that it is operating most 
effectively. But Mr. Cook and I will be pursuing that and I 
hope you will help us with that.
    Also, now, just a more specific question about Las Vegas 
which is the area I represent. There is a school there right 
next to the airport that provides technical training for 
students who are interested in working in the aviation field. 
This is part of chain of schools around the country.
    But because of the rules you have, they have to be in 
existence for two years before anybody can qualify to receive 
veterans' benefits to help them pay to go to school there 
despite the fact that this company has schools operating in 
other places around.
    Is there not any way to have some kind of flexibility when 
it comes to evaluating schools where students can get the GI 
Bill because their colleagues in another state where the school 
is operating are able to do that?
    Mr. Coy. The short answer is we would be happy to look at 
that, you know, on an individual basis. And I will take that 
back and we will get back to your staff.
    Generally to be approved for GI Bill benefits, if you will, 
there are two key rules to be followed. One is the two-year 
rule. In other words, the school has to be in operation for at 
least two years.
    Ms. Titus. Yes.
    Mr. Coy. These are both in statute, by the way. They are 
not policy decisions by the VA.
    And the other is the 85/15 rule which means that at least 
15 percent of the students that are going to that course are 
nonveterans. Both of these statutes were developed so schools 
would not pop up for veterans only and abuse the GI Bill in 
some way, shape, or form----
    Ms. Titus. I appreciate that.
    Mr. Coy [continuing]. And so on and so forth.
    Ms. Titus. Yes.
    Mr. Coy. We will certainly look at your or that individual 
aviation school. Those approvals are handled by the State 
approving agencies, so there is sort of a twofer there. One is 
the statute that I just mentioned.
    Ms. Titus. Yes.
    Mr. Coy. The other piece is oftentimes there are state 
requirements as well which is why we have the State approving 
agencies in each state. But we will be happy to look at that, 
Congresswoman.
    Ms. Titus. Thank you. I appreciate your help.
    Mr. Coy. Yes, ma'am.
    Ms. Titus. I yield back. Thank you.
    Mr. Flores. Thank you, Ms. Titus.
    Thank you, Mr. Coy. You are now excused.
    I thank everyone in the audience for your attendance today 
and for the frank discussion that we have had regarding 
educational opportunities for our veterans and how to improve 
success for our student veterans.
    Finally, I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and to 
include any extraneous material in the record of today's 
hearing. Hearing no objection, so ordered.
    If there is nothing further, this hearing is now adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                APPENDIX

                                 <F-dash>

                  Prepared Statement of Michael Dakduk

    Chairman Flores, Ranking Member Takano, and members of the 
subcommittee, I am writing on behalf of the Association of Private 
Sector Colleges and Universities (APSCU), our member institutions, 
their faculty and the nearly four million students who attend private 
sector institutions. We are grateful for the invitation to offer our 
views on the importance of successful educational outcomes for our 
returning servicemembers and veterans, the VetSuccess program, and the 
implementation of the ``Improving Transparency of Education 
Opportunities for Veterans Act of 2012'' (P.L. 112-249).
    Since 2009, over one million veterans have used Post-9/11 GI 
benefits to pay for their educations. Private sector colleges and 
universities have educated more than 325,000. Private sector 
institutions continue to grow as the education choice for veterans 
because our schools offer focused academic delivery and flexible 
schedules, which veterans favor.
    We understand the challenges that arise when our military men and 
women transition back to civilian life and enter into postsecondary 
education. Our military and veteran students are not the fresh-out-of-
high school, first-time, full-time student living on campus and 
attending college thanks to the generosity of family. Our military and 
veteran students are like many of our new traditional students--
working, with a spouse and children and paying for their education with 
money they have earned. Given the student profile of veterans enrolled 
in higher education today, many are not captured in the Integrated 
Postsecondary Education Database Systems (IPEDS), which is narrowed in 
scope in tracking first-time, full-time students. However, new 
partnerships and initiatives have been introduced to better understand 
the success of veterans in higher education.

Measuring Student Veteran Success

    Most recently, Student Veterans of America (SVA) in partnership 
with the National Student Clearinghouse and Department of Veterans 
Affairs (VA) released the results of their Million Records Project. 
During my tenure at SVA as executive director, I was responsible for 
brokering this partnership leaving me with an appreciation for the 
details captured in the report and the gaps in research on student 
veteran outcomes. In regards to the Million Records Project, I found 
the following items of interest:

        <bullet> The overall completion rate was approximately 52%, 
        above nontraditional peers.
        <bullet> Existing research on post-WWII and Vietnam veterans 
        indicate that the vast majority of veterans complete their 
        postsecondary programs; post-Vietnam-era veterans have GPA's 
        greater than or equal to their peers.
        <bullet> Recent research (2010) conducted by the VA showed that 
        63% of veterans self-reported as completing their postsecondary 
        training. Over half of the post-9/11-era respondents said they 
        completed as well.
        <bullet> While the private nonprofits had the highest 
        completion rates (64%), approximately 22% later completed at a 
        public or proprietary institution.
        <bullet> The completion rate for the private sector was 
        approximately 45%.
        <bullet> Private sector institutions had higher proportions of 
        veterans completing degrees faster. \1\
---------------------------------------------------------------------------
    \1\ Cate, C.A. (2014). Million Records Project: Research from 
Student Veterans of America. Student Veterans of America, Washington, 
DC.
---------------------------------------------------------------------------
    Overall, the report suggests that student veterans are succeeding 
at levels comparable to, if not greater than, their peers. This refutes 
previous notions that student veterans drop out in high numbers.
    Additionally, the Million Records Project provides the framework 
for future research and data collection efforts on military veterans 
pursuing postsecondary education. Moving forward, we expect that new 
data will be available for Congress and the public to analyze given the 
President's recent issuance of Executive Order 13607, or Principles of 
Excellence. Section 3(c) of the order states:

        ``The Secretaries of Defense, Veterans Affairs, and Education 
        shall develop a comprehensive strategy for developing service 
        member and veteran student outcome measures that are 
        comparable, to the maximum extent practicable, across Federal 
        military and veterans educational benefit programs, including, 
        but not limited to, the Post-9/11 GI Bill and the Tuition 
        Assistance Program. To the extent practicable, the student 
        outcome measures should rely on existing administrative data to 
        minimize the reporting burden on institutions participating in 
        these benefit programs. The student outcome measures should 
        permit comparisons across Federal educational programs and 
        across institutions and types of institutions. The Secretary of 
        Education, in consultation with the Secretaries of Defense and 
        Veterans Affairs, shall also collect from educational 
        institutions, as part of the Integrated Postsecondary Education 
        Data System and other data collection systems, information on 
        the amount of funding received pursuant to the Post-9/11 GI 
        Bill and the Tuition Assistance Program. The Secretary of 
        Education shall make this information publicly available on the 
        College Navigator Website.'' \2\
---------------------------------------------------------------------------
    \2\ The White House Office of the Press Secretary. Executive 
Order--Establishing Principles of Excellence for Educational 
Institutions Serving Service Members, Veterans, Spouses, and Other 
Family Members, The White House, Washington D.C., accessed April 24, 
2014, http://www.whitehouse.gov/the-press-office/2012/04/27/executive-
order-establishing-principles-excellence-educational-instituti
---------------------------------------------------------------------------
    We understand that the process for collecting outcomes data on 
student veterans is already underway. We suggest a concept similar to 
the Million Records Project be further explored as a compliment to the 
IPEDS system. Congress, though, should be keenly aware of the 
limitations of IPEDS in its current state. As of today, IPEDS does not 
disaggregate data based on military or veteran enrollment.
    We have provided recommendations for tracking student outcomes in 
our proposal for the reauthorization of the Higher Education Act (HEA). 
Our proposal offers thoughts around five key areas: retention and 
progression rates; completion and return on investment; employment of 
graduates; earnings and/or salary gains; and graduate satisfaction. We 
believe the Common College Completion Metrics as proposed by the 
National Governor's Association Chair's Initiative provides a good 
foundation for advancing dialogue around student outcomes and success 
metrics. \3\ Conceptually, this model may be applied to veterans using 
the Post-9/11 GI Bill and other Title 38 programs.
---------------------------------------------------------------------------
    \3\ Association of Private Sector Colleges and Universities(APSCU), 
Reauthorization of the Higher Education Act, accessed April 22, 2014 
http://www.career.org/policy-and-issues/federal-issues/hea/upload/HEA--
Reauthorization--Proposal--032013.pdf
---------------------------------------------------------------------------
    At a minimum, though, we should appreciate the unique life 
experiences of veterans and servicemembers. They differ drastically 
from the 18 year old, first-time, full-time college student. Current 
federal databases are lacking when it comes to tracking student veteran 
success. They should be updated, or new proposals should be explored, 
to fully capture the success of new learners that take a different and 
sometimes longer path to completion.

Vetsuccess on Campus

    Since the initiative launched in 2009, the VetSuccess on Campus 
(VSOC) program has expanded to 94 sites. While only one VSOC site is 
located at a private sector institution, ECPI University, it remains a 
valuable addition to their veteran support network.
    ECPI University has 10 campuses throughout Virginia, North 
Carolina, and South Carolina. In addition to their ground locations, 
ECPI University provides online courses and programs that are flexible 
for adult learners like veterans and servicemembers. ECPI University 
officially welcomed their new VSOC counselor to the Virginia Beach 
campus in October 2013.
    According to university officials, since being assigned to ECPI 
University the VSOC counselor has averaged seeing over 100 veterans per 
month. She also manages a case load of roughly 40 Vocational 
Rehabilitation and Employment, or Chapter 31, veterans. Executive 
Director of Military Affairs at ECPI University and retired Navy 
Captain, Bob Larned, said the following regarding their VSOC counselor, 
``She has an open door policy and always works around her schedule as 
necessary to see someone. She has put the word out via the student 
veterans organization on campus that she will assist any veteran, not 
only those attending ECPI University.''
    I have long been a proponent of providing resources to veterans by 
meeting them where they are located. In the case of student veterans, 
placing counselors on campuses is a smart approach for connecting with 
many college-going veterans that may not visit VA centers.
    In the event VSOC is expanded, it would be helpful to student 
veterans for VA to consider diversifying the scope and reach of VSOC 
sites by including more private sector institutions.

Improving Transparency of Education Opportunities Act of 2012 (P.L. 
112-249)

    In 2012, APSCU along with other higher education groups and veteran 
advocates sent a coalition letter to this committee calling for more 
consumer education and supports for student veterans. Congressman Gus 
Bilirakis quickly responded by sponsoring H.R. 4057, the ``Improving 
Transparency of Education Opportunities Act of 2012'' (P.L. 112-249). 
We remained supportive of the bill from its inception to eventual 
passage. Regarding the implementation of the law, we look forward to 
working with the Department of Veterans Affairs and other agencies to 
strengthen supports for servicemembers and veterans.
    Finally, we want to work with you to ensure servicemembers and 
veterans are armed with the tools and resources to make an informed, 
thoughtful decision about which educational opportunities will best 
prepare them for the workforce. In short, we share your commitment to 
veteran success.
    Thank you for allowing APSCU to provide our thoughts on important 
topics related to the military and veteran student community. We 
welcome the opportunity to work with this subcommittee and members of 
Congress to support student veterans and student servicemembers.

Executive Summary

    On behalf of APSCU, our member institutions and the military and 
veteran students we serve we welcome the opportunity to provide our 
views on the importance of successful educational outcomes for our 
returning servicemembers and veterans, the VetSuccess program, and the 
implementation of the ``Improving Transparency of Education 
Opportunities for Veterans Act of 2012'' (P.L. 112-249).

Measuring Student Veteran Success

        <bullet> Measuring student veteran success is not fully 
        reflected in current federal databases
        <bullet> Recent and previous studies show that veterans perform 
        at or above their peers
        <bullet> New methods for tracking nontraditional students, like 
        veterans, should be explored

        Vetsuccess On Campus (VSOC)

        <bullet> he program provides important access to services and 
        supports to veterans on campus
        <bullet> VSOC is on 94 campuses; only one is located at a 
        private sector institution
        <bullet> Future program expansion should take into account the 
        diversity of veteran enrollment

        Improving Transparency of Education Opportunities Act of 2012 
        (P.L. 112-249)

        <bullet> APSCU was an early supporter of H.R. 4057, now P.L. 
        112-249
        <bullet> APSCU remains supportive and looks forward to working 
        with VA on implementation
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        
                Statement Presented by Ricardo D. Torres

    Chairman Flores, Ranking Member Takano, and Members of the 
Committee, thank you for inviting me to speak with you on this 
important topic. We are honored by the opportunity to help inform this 
very timely discussion on Defining and Improving Success for Student 
Veterans. I am Ricardo Torres, President and CEO of the National 
Student Clearinghouse (``Clearinghouse''), a nonprofit organization 
serving the education community by facilitating the exchange and 
understanding of student enrollment, performance, and related 
information. We work with colleges and universities that collectively 
enroll 96% of all students in our nation's degree granting, Title IV 
Student Loan Program institutions. Through our partnerships with these 
institutions, we work to reduce administrative burdens on students and 
school administrators, allowing them to focus more on achieving 
successful educational outcomes.
    We are proud to have supported the Veteran's Benefits 
Administration of the Department of Veterans Affairs and the Student 
Veterans of America and to have enabled the groundbreaking Million 
Records Project, which provided this committee with never before 
available information regarding the success of the programs you have 
funded to provide education opportunities for our veterans. Today, we 
would like to suggest some powerful possible ways we can further help 
you evaluate and facilitate veterans' education programs.

What is the National Student Clearinghouse?

    The National Student Clearinghouse is the nation's trusted source 
for education verification and student educational outcomes research. 
More than 3,600 colleges and universities, including public and 
private, for-profit and nonprofit institutions, participate in the 
Clearinghouse. Participating institutions provide access to actual 
enrollment and degree information on each of their students to us. As a 
result, only the Clearinghouse can offer access to a nationwide 
coverage of enrollment and degree records--encompassing more than 144 
million students and growing. Through our verification, data exchange 
and reporting services, the Clearinghouse saves higher education 
institutions nearly $500 million dollars annually. Most Clearinghouse 
services are provided to colleges and universities at little or no 
charge, including enhanced transcript and research services, enabling 
institutions to redistribute limited staff and budget resources to more 
important student service efforts. The Clearinghouse is a nonprofit 
that does not receive state or federal appropriations. Our data process 
is supported through the fees we collect from third-parties for 
services provided on behalf of our participating institutions.
    Today, the Clearinghouse is also the leading provider of 
educational reporting, verification and research, on behalf of its 
participating institutions, to the nation's colleges and high schools, 
the student lending community, the Department of Education, state and 
other educational agencies, students and alumni, and thousands of 
employers and other organizations. All of the Clearinghouse's services 
are designed to facilitate an institution's compliance with the Family 
Educational Rights and Privacy Act, The Higher Education Act, and other 
applicable laws.
    The Clearinghouse was founded over 20 years ago to cost effectively 
address Title IV program inefficiencies. Before the launch of the 
Clearinghouse in 1993, student lenders had no dependable way to 
determine if a borrower was still in school and eligible for a loan 
deferment. Institutions spent thousands of hours each year processing 
20 million deferment forms. Students were often mistakenly placed into 
default status, jeopardizing their credit rating and artificially 
inflating the reported default rate on these federally guaranteed 
loans. The higher education community created the Clearinghouse to 
simplify and standardize student deferment reporting. Instead of 
submitting millions of individual deferment forms to hundreds of 
lenders, schools now transmit a single electronic report of all their 
enrolled students to the Clearinghouse. The Clearinghouse matches each 
enrollment record to electronic lists of student loan recipients and, 
whenever a match occurs, forwards the relevant enrollment data to the 
appropriate lender. The success of our efforts to reduce higher 
education's student loan reporting burden is best evidenced by the fact 
that over 3,600 institutions have chosen to participate in the 
Clearinghouse. All of the nation's guarantee agencies, the Department 
of Education's Direct Loan Servicer, and most student loan servicers 
participate in the Clearinghouse as well. Think of us as a back office 
to the university's registrar, financial aid officer, and institutional 
researcher. The Clearinghouse is the largest electronic education data 
exchange ecosystem in the country, with over 1 billion secure and 
legally compliant transactions annually.
    The public-private partnership approach used by the Clearinghouse 
can be a model for a better way to serve our veterans while reducing 
the burdens on both government and educational institutions. The 
Clearinghouse helps educational institutions improve efficiency, reduce 
costs and workload, and enhance the quality-of-service they provide to 
their students and alumni, lending institutions, employers, and other 
organizations. We provide our services as an agent to our participating 
institutions, supporting their administrative, student access, 
accountability, and analytical needs. Moreover, through our educational 
research services that access our unique national dataset of student 
enrollments and degree outcomes, the Clearinghouse also serves as a 
valuable source for longitudinal and other studies on educational 
progress.

Clearinghouse Research and the Million Records Project

    The National Student Clearinghouse Research Center (``Research 
Center'') is the research arm of the National Student Clearinghouse. 
The Research Center works with higher education institutions, states, 
districts, high schools, and educational organizations to better inform 
practitioners and policymakers about student educational pathways. 
Through accurate longitudinal data outcomes reporting, the Research 
Center enables better education policy decisions leading to improved 
student outcomes. The unprecedented nationwide reach of our information 
resources takes education researchers beyond the limitations of 
institutional data to provide the most accurate picture of student 
outcomes ? even when students transfer among multiple institutions, in 
different states, and over long periods of time ? while still being 
respectful of student privacy.
    Working in partnership with the Student Veterans of America and the 
Department of Veterans Affairs (``VA''), the Research Center 
participated in a groundbreaking research project that broadens 
perspectives and informs many of the pressing questions about the 
educational pathways and outcomes of student veterans. As part of the 
Million Records Project, we searched our unique dataset to help inform 
the nation about the return on our federal government's investment of 
the more than $20 billion spent to provide education benefits to 
veterans. Through this public-private partnership, for the first time, 
comprehensive national statistics on the postsecondary outcomes of 
veterans from Operation Enduring Freedom and Operation Iraqi Freedom 
were made available, including degree completion, time-to-degree, and 
field of study preferences.

The Unique Enrollment Patterns of Veterans

    One of the clear observations that emerged from the data that we 
provided to make this study possible is the highly non-traditional 
nature of veterans' educational pathways. Student veterans are more 
likely to transfer or change institutions, and take longer to complete 
a degree or certificate, than other students. This makes defining 
success and measuring success for these veterans a particular 
challenge. The current federal Department of Education metrics that 
define successful outcomes for students and institutions are based on a 
definition of ``first-time full-time'' students. This is the basis of 
the standard Integrated Postsecondary Education Data System (``IPEDS'') 
institutional retention and graduation rate. It counts as a success 
only those students who have no previous higher education experience, 
enroll full time in a degree granting program, and graduate from the 
same institution where they started. Only three-quarters of degree-
seeking students today begin by enrolling full time, and nearly one-
quarter of those who complete a degree do so somewhere other than the 
institution where they started. So, using the standard definitions to 
measure the success of student veterans would be like computing 
baseball players' career statistics by only counting members of the 
starting lineup who never changed teams, and ignoring everyone else on 
the team's roster completely.
    For student veterans, the rates of institutional mobility are 
particularly high. The data provided by the VA for the SVA's Million 
Records Project, matched to the Clearinghouse's unique enrollment 
database, show that recipients of the Montgomery GI Bill and the Post-
9/11 benefits are much more likely than other students to enroll at 
more than one institution in pursuit of their degrees. The SVA report 
shows that these students are older, take longer to graduate, and more 
likely to stop out and change institutions due to external 
circumstances, like reserve mobilizations, job changes, or family 
status changes. They may also try to combine credits earned online 
while on active or reserve duty with on-campus courses in a new degree 
program after their service.
    The Million Records Project clearly demonstrated that today's 
veterans are capable and determined when it comes to pursuing 
postsecondary educational goals. Using the Clearinghouse's unique 
ability to track and measure student outcomes across institutions, 
states and sectors, the Million Records Project has demonstrated that 
more than half of veterans benefit recipients since 2002 have completed 
degrees, in spite of the challenges and hurdles they faced. It is a 
great disservice to the hard work, dedication, and perseverance of our 
veterans to continue to define and measure their postsecondary success 
using only the traditional yardstick designed for 18-year-old students 
who enroll full time at a single institution. It also creates undue 
hardships for student veterans when the simple act of transferring 
credits or changing institutions generates new administrative hurdles 
and burdensome, time-consuming requirements for obtaining and retaining 
the tuition benefits that were promised to them when they enlisted.

Meeting the Challenge of the Influx of Veterans Into Higher Education

    Given the influx of veterans expected to enroll in higher education 
programs over the next few years, it is important that we have the 
ability to successfully meet veteran program demands in a way that 
responds to the varied needs of these non-traditional students. The 
Clearinghouse is offering suggestions regarding what can be done to 
help ensure veteran success in two areas: 1) facilitating entry to 
colleges and universities and 2) enabling continued enrollment 
sufficient to accomplish what the veteran set out to do.
    The first opportunity to assist veterans is facilitating entry to 
colleges and universities. The newly released GI Bill College 
Comparison tool was an important breakthrough in providing information 
to veterans about their benefits in a school-specific manner. 
Unfortunately, the tool has two limitations for which we would like to 
offer solutions. First, the tool does not calculate an individual 
veteran's entitlement and track what part of that entitlement has been 
used. Veterans can only designate themselves as belonging to one of 10 
categories based on their recollection of their number of post 9-11 
months of active duty service. The tool is, as it describes itself, an 
estimator. Although this information is informative, it does not fully 
remove the barriers necessary for a veteran to easily shop for a 
school.
    The second limitation of the tool is that it does not provide 
information on the graduation rates that is accurate or relevant to the 
unique enrollment patterns of veterans. In authorizing the creation of 
the tool, the Committee and the VA wisely chose measurements of 
graduation rates that would not place an additional reporting burden on 
institutions of higher education. It is clear that duplicative 
reporting burdens take institutional resources away from directly 
serving the needs of enrolled veterans. The graduation rate metric 
chosen was the IPEDS rate which, as we pointed out, is based on first-
time full-time 18-year-old students, a population that has little 
relevance to the educational patterns of veteran adult learners. This 
metric also does not account for student mobility which, as the Million 
Records Project shows, is particularly high for veterans. In addition, 
a degree based graduation rate may be misleading or uninformative to a 
veteran who wishes to achieve a certificate or take a few specific 
courses for a workforce credential. The tool was an important step in 
the right direction, but can be misleading in helping veterans 
understand the probability of graduation at an institution for people 
like them.
    The National Student Clearinghouse has solved the problem of 
providing accurate information while not increasing reporting burdens 
on institutions through its work with the education community on the 
Voluntary System of Accountability (VSA) and the Student Achievement 
Measure (SAM). By using our data that tracks students across 
institutions, not limited to first-time full-time enrollees, VSA and 
SAM schools can provide students with a graduation rate that is not 
subject to the first-time full-time IPEDS limitation. With the recent 
addition of veteran status as a data field for the information on 
individual students that schools supply to the Clearinghouse, we could 
easily calculate a graduation rate that is not restricted to the 
limitations of IPEDS and is also veteran-specific. This can enable 
great schools, like those in the University of North Carolina system, 
to claim full credit for the success of their support services in 
ensuring the successful program completion of their veterans.

Meeting Enrollment Challenges

    In their ongoing dialogues with us, institutional administrators 
have reported recent improvements in their interactions with the 
Veteran's Administration. Even with the VA's hard work, there is still 
a significant lag time between the concept of a system improvement and 
its actual implementation. There is also great concern around the 
scalability of existing processes. Development of new technology can 
require a significant investment of federal dollars, institutional 
resources, and staff time. Given the large influx of members of our 
armed forces expected to join the ranks of veterans in the next few 
years, the problems of multiple aging systems will become even more 
acute.
    Veterans and the schools serving them face a continuous stream of 
administrative complexities around activities, such as certificate of 
eligibility processing, residency verification, kicker processing, 
previous credential accumulation assessment, applicability of 
credentials to degrees, retaining benefit on transfers, and 
inconsistency in branch of service requests. Registrars at institutions 
have pointed out some of the challenges to us:

        <bullet> Schools and VA customer service representatives do not 
        have access to the same data at the same time and, therefore, 
        see inconsistent or incomplete information regarding benefits 
        eligibility. This makes it extremely difficult to counsel 
        individual veterans.
        <bullet> The VA Once technology is a legacy system and is no 
        longer being updated. Instead of transferring critical data 
        through batch processing from their other systems, schools must 
        manually enter data for each individual veteran.
        <bullet> Some student veterans were given enhanced benefits 
        upon enlistment. Determining the level of this ``kicker'' can 
        further delay the ability to establish eligibility and result 
        in additional challenges in maintaining enrollment for 
        students.
        <bullet> Residency and proof-of-residency requirements for 
        veterans are determined on a state-by-state basis (in part 
        because House Bill H.R. 357 has not yet been passed by the 
        Senate), which adds to delays.
        <bullet> Establishing the eligibility for Post 9-11 benefits, 
        which includes checking character of discharge and the amount 
        of credible service through the Department of Defense, results, 
        can further delay the enrollment and registration of student 
        veterans.
        <bullet> Inconsistencies between the requirements for veterans' 
        education benefits and those for Title IV cause challenges for 
        institutions. A veteran who needs supplementary aid and wants 
        to qualify for Title IV must register as degree seeking, even 
        if he or she is seeking a credential that requires fewer 
        courses.

    As pointed out in the discussion regarding the complexity of 
education pathways taken by veterans, issues of transfer and transfer 
of credit pose a particular challenge for these mobile students. 
Department of Veterans Affairs has worked with the American Council on 
Education (ACE) to solve many of these challenges by providing 
recommended credits that can be awarded for military training and 
experience as well as resources to colleges and universities to assist 
in evaluating and accepting these credits and applying them toward 
degrees. Despite this work, schools report to us that challenges 
remain, including:

        <bullet> Delays and difficulties in accessing information 
        regarding postsecondary course work a veteran may have taken 
        before military service to ensure transfer of these credits.
        <bullet> No way to easily understand how acquired military 
        credits translate into time to graduation.
        <bullet> Delays and difficulties in determining remaining 
        veterans' benefit entitlement when a veteran transfers. In mid 
        semester, a veteran and his or her institution can often be 
        surprised to learn that benefits are exhausted and the veteran 
        faces a tuition bill.

    Some of these challenges result from multiple programs with 
divergent requirements. The possibility of a new and additional GI Bill 
will simply add to complexity and the potential for confusion.
    Individually, these procedures serve a purpose, but they could be 
greatly simplified to enable the enrollment of the veteran at the 
institution of his or her choice. One solution we recommend is two-
fold: first, employ electronic document ordering capability in the 
eBenefits portal, enabling veterans to securely and privately send 
their benefits summary directly to the veteran's certification office 
of their chosen institution. Second, in collaboration with ACE, the 
Department of Veterans Affairs and the Department of Defense allow the 
Clearinghouse to be the repository of active duty and veteran 
competencies, academic credits, and credential aggregation providing a 
one-stop data shop for veterans to enable efficiency in enrolling in a 
postsecondary institution or applying for employment. Providing a way 
for a student veteran to authorize a secure eBenefit financial summary 
to be sent to an institution where they have applied would further 
facilitate the process.

Ensuring Successful Program Completion

    One of the biggest barriers to completion we have heard from 
veterans and the institutions serving them is uncertainty and delays in 
tuition assistance requests and aid disbursement. Current remediable 
pain points include:
        <bullet> Manual processes necessary for repetitive end-of-
        semester completion status reports, interim add/drop and major 
        change processes, uploading of course catalogs, and constant 
        reporting outside normal cycles; and
        <bullet> Delays and uncertainty in determining entitlement 
        balances.
    Leveraging our Title IV experience, we can certainly enable a 
significant improvement in reporting these requirements, thereby 
allowing school staff to spend more time serving student veterans and 
allowing the veteran to be less focused on paperwork and more focused 
on classwork and homework. The manual processes we noted are very 
reminiscent of the challenges in the Title IV loan program which we 
were created to solve.
    One available tool is our open source application, Meteor, which 
provides an integrated view of student debt and could be connected to 
the VA benefits database to provide the veteran with an integrated view 
of all financial aid, debt, and benefits. This application could be 
leveraged to provide an integrated financial snapshot of all benefits 
and aid in order to help financial aid administrators counsel veterans. 
Meteor displays real-time summary and detail loan information on a 
borrower's student loans from the various data providers in the Meteor 
Network. Secure, online access is available to students, borrowers, and 
financial aid professionals through a Meteor access provider. 
Individuals can see their cumulative debt and can utilize unique tools, 
such as payment plan and income-based repayment calculators, helping 
them to avoid over borrowing. Financial aid professionals can compare 
the information submitted for an individual borrower by all sources on 
the Meteor master screen, allowing them to pinpoint issues at specific 
organizations in order to assist students with problem resolution. 
Adding a link to the Department of Veterans Affairs and Department of 
Defense benefit databases would give the student veteran up-to-the-
minute information without reporting delays. This would allow a veteran 
to register for courses with confidence without the risk of learning 
midsemester that his or her benefits had been exhausted.

Measuring Success

    Educational success for veterans can only be measured by the answer 
to one question: did the veterans achieve the goals they intended when 
they enrolled. For many, this is an associates, bachelors, or graduate 
degree. For others, it may be a certificate of skills or similar 
credential that gives them entry to the workforce. Whatever the goal, 
veterans also face challenges staying enrolled due to re-mobilizations, 
employment changes, and family circumstances. Student veterans take 
longer to graduate, and change institutions more often, than 
traditional students. This not only makes it harder for the students to 
maintain momentum and focus on their goals, it also makes it harder for 
colleges, universities, and policymakers to track their progress and 
measure their success. For example, traditional reporting metrics, such 
as degree completion within 150% of normal program time, are clearly 
inadequate for student veterans. According to the Million Records 
Project, only 43% of student veterans who successfully completed an 
associate's degree did so within three years, while nearly one-third 
(31%) took more than six years. We assume that this is due to extensive 
stopouts, transfers and re-enrollments, but we do not know enough of 
the details to address the challenges. Those who wish to serve veterans 
better, whether through campus support programs, college transfer 
policies or VA benefit policies, need better information in order to do 
so.
    We need further research, like the Million Records Project, but 
with more details and greater focus, to determine which veteran support 
programs are working best to serve the needs of veterans today and 
which need to be improved or modified. We need to use longer tracking 
periods, with more term-by-term enrollment details, to fully capture 
the success of student veterans who stop-out and return to college, and 
to understand why not for those who do not return. And we need better 
information about the potential administrative and financial 
constraints that veterans face and their effect on student success to 
assess the effectiveness of veterans' education benefits programs. By 
combining the data of the Department of Veterans Affairs, Student 
Veterans of America, and the Clearinghouse in a manner similar to the 
collaborative model of the Million Records Project, additional 
breakthrough research could be accomplished within a year.
    In particular, we propose a research project that would build upon 
the Million Records Project with more detailed data on individual 
enrollment patterns before, during, and after receiving VA benefits, 
with longer tracking periods to capture more of the range of successful 
degree pathways, and with additional data collected from colleges and 
universities on the types of support programs available to veterans at 
the specific institutions in which they enrolled. This would allow us 
to answer key questions like:
        <bullet> How do the education success rates of student veterans 
        compare to those of non-veterans of similar age, at similar 
        institutions, and enrolled within similar time-frames?
        <bullet> How do veterans' enrollment behaviors like stop-outs, 
        transfers, and multiple-institution enrollments affect success 
        rates?
        <bullet> Where are focused interventions, such as reducing 
        administrative burden, delivering more timely and accurate 
        eligibility information, and streamlining benefit disbursement, 
        likely to have the most impact?
        <bullet> Which on-campus veterans support programs have the 
        highest impact on success rates, both at the starting campus 
        and at any subsequent institutions where a veteran transfers?
    We firmly believe that student veterans should have a level 
administrative playing field with other students when it comes to 
attaining success in pursuit of their educational goals. One way to do 
this is to eliminate the extra hurdles that student veterans must 
overcome to certify their eligibility for benefits, access those 
benefits, and continue to receive those benefits. The second is to 
provide policymakers, institutions, and veterans with the research to 
enable them to assess what is working and what needs improvement. 
Providing these two types of support will increase the probability of 
success for all student veterans. Our veterans deserve our support to 
ensure that they can attain their education goals and successfully move 
into the workplace.
    Thank you for the opportunity to speak with you today.

  Curriculum Vitae Relevant to the Testimony of the National Student 
                             Clearinghouse

    Ricardo D. Torres, President and CEO
    Mr. Torres joined the National Student Clearinghouse as its 
President and CEO in 2008. The Clearinghouse, a nonprofit organization 
founded in 1993, is the nation's trusted source for education 
verification and student educational outcomes research. Its 
participants include more than 3,600 U.S. colleges and universities. In 
the last year, the Clearinghouse processed over one billion digital 
transactions.
    Prior to joining the Clearinghouse, Mr. Torres had a long and 
distinguished career in the private sector, both in the U.S. and 
abroad, including serving as COO at Best Practices, a nationally-
recognized provider of emergency medicine and physician practice 
management, and COO of a division of Capital One (a financial services 
company). Mr. Torres has also held management positions in leading 
organizations such as PepsiCo and Philip Morris/Kraft Foods (now known 
as Altria Group). His diverse background includes financial and 
strategic planning, marketing and sales, general management, and 
executive leadership.
    Mr. Torres is a board member of the John Tyler Community College 
Foundation, American Association of Community Colleges (AACC), the 
National College Access Network (NCAN), and the Cesar Chavez Public 
Charter Schools for Public Policy. He also serves on the Advisory Board 
of Cohesive Knowledge Solutions (a knowledge management company). He 
was a recipient of the Washington Business Journal's 2013 Minority 
Business Leader Award. Mr. Torres recently wrote an article, entitled 
``Barriers to Electronic Movement of Credentials,'' which was published 
on September 10, 2013, in the Stanford University's digital 
publication, Transcending the Maze. Mr. Torres holds an MBA in 
International Finance from Georgetown University and undergraduate 
degrees in both Marketing and Management from Manhattan College.

  Federal Contracts Relevant to the Testimony of the National Student 
                             Clearinghouse

    The National Student Clearinghouse has a contract with the U.S. 
Department of Education to process weekly changes to the higher 
education enrollment status of direct loan recipients for the purpose 
of servicing these loans. The current annual contract amount is 
$2,800,000.
    2013 Memorandum of Agreement with the Veterans Benefits 
Administration for a) the transfer to and use of VA data by the 
National Student Clearinghouse for the purpose of a data match to 
support a postsecondary education completion database of Post-9/11 and 
Montgomery GI Bill beneficiaries, and b) providing these data services 
based upon funding provided by Student Veterans of America. There was 
no cost to the Department of Veterans Affairs or the Veterans Benefits 
Administration; however, the Student Veterans of America funded the 
research in the amount of $286,521.

                  Prepared Statement of Thomas W. Ross

    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me to testify today about defining and improving academic success for 
student veterans.
    I am Tom Ross, President of the University of North Carolina 
system. We enroll more than 220,000 students on 16 university campuses, 
and employ roughly 50,000 faculty and staff across the state. 
Approximately 8,000 \1\ of our current students use VA educational 
benefits to pay for some or all of their post-secondary education.
---------------------------------------------------------------------------
    \1\ UNC: Fall 2013 data.
---------------------------------------------------------------------------
    North Carolina is a big military state. We are home to 800,000 
veterans. Our state has six major military installations with the 
third-largest active military force in the country, comprising 120,000 
personnel, 12,000 members of the National Guard, and their nearly 
145,000 spouses and children.
    I know that this subcommittee and Chairman Miller have a special 
interest in public institutions of higher education extending in-state 
tuition rates to certain veterans who may not qualify under current 
state law. I want to be clear that the University of North Carolina 
supports--and has always supported--extending in-state tuition to 
certain veterans and their families. We appreciate the leadership shown 
by Chairman Miller and this subcommittee on this issue. While North 
Carolina is not currently one of the states that offers in-state 
tuition to certain veterans and their families, please know that we are 
working aggressively with members of the North Carolina General 
Assembly to enact legislation to change this situation in the short 
session that begins later this month, and we are optimistic we will be 
successful.
    As the state's public University, we are committed to offering 
students access to high-quality, affordable educational programs. We 
are working hard to enroll, educate and graduate as many academically 
prepared service members, veterans and their dependents as possible. 
Our motivation is simple: the success of student veterans and their 
families attending UNC institutions is vital to the success of the 
University and our state's future.

Federal Oversight

    After the Post 9/11 GI Bill became law in 2008, UNC institutions 
experienced a surge in applications for admission from military-
affiliated students for the 2009-10 academic year. Programs such as the 
VA's Yellow Ribbon Program emerged. Military-affiliated students were 
often confused about how their Montgomery GI Bill and the new GI Bill 
worked together. In 2010, Congress made changes to the Post 9/11 GI 
Bill. In parallel, in March 2011 and again in December 2012, the 
Department of Defense (DoD) asked institutions participating in the 
``Voluntary Education Partnership'' to sign new Memoranda of Agreement 
as a condition of permitting active-duty military to use Tuition 
Assistance funds to pay for their higher education on campus. The DoD 
continues to refine the agreement.
    Concurrent with these changes and requirements, President Obama in 
April 2012 issued Executive Order 13607, ``Establishing Principles of 
Excellence for Educational Institutions Serving Service Members, 
Veterans, Spouses, and Other Family Members.'' Subsequently, in May 
2012, the Department of Veterans' Affairs asked institutions of higher 
education to commit to certain ``Principles of Excellence'' contained 
in the President's Executive Order by August 1, 2012. In August 2013, 
the Department of Education launched an effort to have campuses sign 
its ``8 Keys to Success'' pledge in support of student veterans.
    To be clear, the University of North Carolina system agrees with 
the spirit of and intent behind each requirement or program. We hope 
that the federal agencies involved in these initiatives continue to 
work toward coordination of effort. We also ask to be included--on the 
front end--in any new federal initiatives, programs or requirements of 
higher education in support of veterans. UNC is proud of our self-
imposed standards of excellence, and we believe we are well positioned 
to offer perspective and constructive feedback as future endeavors are 
contemplated. We have much to contribute to the national dialogue.

The UNC System Self-Imposes Strong Standards for Serving Veterans

    In October 2010, the University of North Carolina system convened a 
working group of students, faculty, and administrators from across the 
16 campuses to evaluate and recommend specific action steps for 
improving how the University and its individual institutions serve 
veterans and their families. Called UNC SERVES (UNC Systemwide 
Evaluation and Recommendation for Veterans Education and Services), 
this working group was presented with four questions:

        <bullet> How are UNC campuses currently serving active service 
        members, veterans and their families?
        <bullet> What are the accepted best practices for serving these 
        students?
        <bullet> What can the University reasonably do to improve 
        access to, retention and graduation of active-duty and veteran 
        students?
        <bullet> What are metrics of success for the University in 
        serving these students?

    The UNC SERVES working group was charged with developing a 
comprehensive report to the President with recommendations for:
        <bullet> Evaluation of current state of military and veteran 
        affairs on UNC campuses;
        <bullet> Institutional, systemwide, and state/federal statutory 
        policy changes, regulations and/or guidelines to improve 
        access, retention and the graduation of active service members, 
        veterans and their families on UNC campuses;
        <bullet> Institutional and systemwide best practices to improve 
        access, retention and the graduation of active service members, 
        veterans, and their families on UNC campuses; and
        <bullet> Opportunities for institutional and systemwide 
        improvement.
    The working group also was asked to consider the following factors:
        <bullet> Diversity of campuses, including size, capacity, and 
        number of active service members, veterans, and their families;
        <bullet> Constrained resources--Consider all options, but 
        prioritize no-cost, low-cost recommendations;
        <bullet> Return on investment; and
        <bullet> Costs should accompany each recommendation, if 
        possible.
    The UNC SERVES working group issued its report to me in April 2011. 
The report included recommendations for improvement at both the system 
and individual campus levels. The Chancellors and I quickly embraced 
the recommendations, and our UNC (system) Faculty Assembly passed a 
resolution in support of UNC SERVES.
    UNC System Progress With Self-Imposed Standards for Serving Student 
Veterans
    The University is making great strides toward implementing these 
recommendations. As a follow-up to the initial UNC SERVES report, the 
University system office issues an annual ``UNC SERVES Resource Guide'' 
that summarizes campus and system progress toward each action item. The 
Resource Guide also offers examples of campus initiatives, such as 
North Carolina Central University's Veterans Law Clinic and 
Fayetteville State University's Veterans Business Outreach Center. 
Within the Resource Guide, we publish a ``matrix'' of campus-by-campus 
progress toward each UNC SERVES recommendation. The most recent matrix 
is attached to my testimony. The UNC SERVES report and Resource Guides 
also are found online at: http://www.northcarolina.edu/frc/uncserves/
serves.html
    Because serving student veterans appropriately requires leadership 
from the top, I am working with our 16 university Chancellors to 
aggressively implement UNC SERVES recommendations. To improve 
coordination of effort, our campuses have established Military Affairs 
Committees, and the UNC system periodically convenes the Military 
Affairs Council, a coordinating body with representatives from every 
campus.
    The UNC Board of Governors is equally engaged. In June 2013, the 
Board approved a Military Student Success Policy that provides 
framework for a comprehensive network of services for military-
affiliated students. In August 2013, the also Board established a 
Special Committee on Military Affairs, with a particular focus on 
fostering success for the University's student veterans. A copy of the 
Military Student Success Policy is submitted with my testimony.
    In very short order, I will establish internal University 
regulations for implementing the requirements of the Board's policy and 
promoting the general welfare of service members, veterans, spouses, 
and dependent family members attending our constituent institutions. 
Under this new policy, any individual who has completed at least two 
years of cumulative active-duty service in the United States Armed 
Forces will be considered a transfer student in the admissions process. 
The service branch is the transfer institution of record, and the 
military transcript is the starting point for evaluating the veteran's 
military learning for academic credit.

Data Collection and Reporting

    The University of North Carolina has implemented systemwide, 
uniform data collection procedures to ensure that we can identify and 
track the academic progress of service members, veterans, spouses, and 
other dependent family members. The University will evaluate and 
publicly report matriculation trends, including retention rates, 
graduation rates and length of time to degree. This information will 
also help us better understand preference trends among student 
veterans, including program choice and preferred delivery methods.
    National efforts to gather and provide information on student 
veteran success are also important. If we wish to truly understand 
matriculation and graduation trends of student veterans, the data used 
must be accurate. The Student Veterans of America (SVA) Million Records 
Project is a great step in the right direction. I am especially glad 
that the Million Records Project uses National Student Clearinghouse 
data for its analyses, as this is currently the most reliable database 
for tracking student persistence and outcomes. The University of North 
Carolina enjoys a great working relationship with the SVA, and we 
routinely provide our enrollment data to the National Student 
Clearinghouse.

UNC Institutions Aligning Academic Programs to Student Needs

    Individual UNC campuses have a long history of working with 
military-affiliated students and North Carolina's military 
installations. Several of them--Fayetteville State University, 
University of North Carolina Wilmington, University of North Carolina 
at Pembroke, and East Carolina University--have academic advisors 
located on post at Fort Bragg, aboard Marine Corps Base Camp Lejeune, 
or at Seymour Johnson Air Force Base. These campuses' geographic 
proximity, coupled with their regional focus, naturally align with 
serving these specific communities.
    Representing all UNC institutions, the UNC system office has 
academic advisors at Fort Bragg, aboard Camp Lejeune, and at Coast 
Guard Air Station Elizabeth City. UNC system personnel also hold 
academic advising office hours at the Camp Lejeune Naval Hospital, 
where the academic advisor is available to all hospital personnel, 
Marines and sailors from the Wounded Warrior Battalion East, the 
Traumatic Brain Injury Clinic, and Marine Corps Air Station Cherry 
Point.
    UNC campuses offer specialized programs of interest to veterans and 
active-duty military service members. Veterans are attracted to these 
programs because their military learning and experiences align with the 
academic programs and help prepare them for their desired career. In 
addition, many courses are structured to accommodate an adult student's 
lifestyle. Many student veterans have family responsibilities, part-
time or full-time employment, and other obligations. Examples of such 
academic programs include:
    East Carolina University: Bachelor of Science, Industrial 
Distribution and Logistics
    Fayetteville State University: Bachelor of Arts, Intelligence 
Studies
    North Carolina A&T State University: Ph.D., Leadership Studies
    North Carolina Central University: Bachelor of Science, Criminal 
Justice
    North Carolina State University: Bachelor of Arts, Leadership in 
the Public Sector
    North Carolina State University: Master of Geospatial Information 
Science and Technology
    UNC--Chapel Hill: Master of Arts, Military History
    UNC--Chapel Hill: Master of Business Administration (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="501d121110051e13">[email&#160;protected]</a>)
    UNC--Chapel Hill: Master of Public Administration (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9849988899c878a">[email&#160;protected]</a>)
    UNC--Charlotte: Bachelor of Science, Neurodiagnostics and Sleep 
Science
    UNC--Greensboro: Bachelor of Arts, Liberal Studies
    UNC--Pembroke: Bachelor of Interdisciplinary Studies, Public and 
Non-Profit Administration
    UNC--Wilmington: Master of Arts, Conflict Management and Resolution
    Western Carolina University: Bachelor of Science, Emergency and 
Disaster Management
    Winston-Salem State University: Master of Science in Rehabilitation 
Counseling
    Centralized Information Sharing and One-Stop Shopping for Veterans
    We understand that veterans are nontraditional students. Student 
veterans come to us from the highly structured, bureaucratic 
environment of the military and are often uneasy with the loosely 
structured, bureaucratic environment of the University. University 
admissions and enrollment processes for veterans can be complex, 
sometimes requiring visits to different departments across campus. One 
of our top priorities is centralizing information sharing, using a 
technology-based platform that provides a virtual ``one-stop-shop'' for 
veterans. This enables us to provide reliable and consistent 
information in response to the questions most commonly posed by 
veterans. In addition, as unique situations arise, veterans always have 
the name and contact information for specific campus-based staff who 
are readily available to ensure that their questions can be answered. 
All campuses are encouraged to go beyond a technology-based solution 
and provide a centralized physical location where veterans can access 
the resources they need. Many UNC institutions already have veteran's 
centers in place, and several others are working to establish them. To 
access the University's virtual one-stop-shop: http://
www.uncserves.northcarolina.edu
    Another technology-based resource now in development is the North 
Carolina Military Educational Positioning System, or ``NCMEPS.'' This 
website provides military-affiliated students the resources they need 
to explore with greater ease North Carolina's higher education 
options--both public and private--the tools to successfully navigate 
the application, admission and enrollment process; and the knowledge to 
persist, graduate and pursue their career goals. To cite one example, 
the GI Bill module allows users to answer a series of questions about 
their personal circumstances to learn more about how to maximize their 
VA benefits. While the website was conceived by the UNC system, the 
goal is to help prospective students find, apply, and pay for the North 
Carolina college or university that is right for them. The website, 
which is live and available to student veterans now, will be fully 
functional by July 1, 2014. To access the NCMEPS: http://
www.ncmileps.northcarolina.edu

Working With Community College Partners

    The University of North Carolina system works closely with the 
North Carolina Community College System to create degree programs and 
transition pathways that are geared toward active-duty service members, 
veterans, and their families. A Comprehensive Articulation Agreement 
(CAA) between the two systems, revised and expanded in February, helps 
facilitate a smooth and seamless pathway for students transitioning 
from a community college to the University. This statewide agreement 
governs the transfer of certain academic credits among all North 
Carolina community colleges and North Carolina public universities.
    In addition, some UNC institutions have separate articulation 
agreements with selected community colleges that are specific to 
certain majors and enable students to progress from an Associate in 
Applied Science (A.A.S.) degree to a bachelor's degree. Major study 
areas include Information Systems and Engineering Technology, both 
directly applicable to military education requirements. Specific 
examples include:
        <bullet> Fayetteville State University, North Carolina State 
        University, UNC Pembroke, and Western Carolina University have 
        partnered with Fayetteville Technical Community College and the 
        United States Army Special Operations Command, Special Warfare 
        Center & School at Ft. Bragg to develop an Associate of General 
        Education (A.G.E.) degree that awards credit for military 
        learning with seamless transition to Bachelor degree programs 
        in areas such as Intelligence Studies, Criminal Justice, and 
        Interdisciplinary Studies (http://www.soc.mil/swcs/education/). 
        This Associate's to Bachelor's degree pathway was created 
        specifically for active-duty soldiers in the U.S. Army Special 
        Operations Command.
        <bullet> UNC Wilmington and Coastal Carolina Community College 
        have partnered with the United States Marine Corps to offer 
        undergraduate and graduate courses and the Associate, 
        Bachelor's and Master's degrees on the community college campus 
        and aboard Camp Lejeune for active-duty and veteran Marines and 
        their spouses or dependents (http://www.uncw.edu/onslow/) and 
        (https://www.coastalcarolina.edu/military-partnerships/).
        <bullet> NCSU Engineering Online is a unique partnership 
        between North Carolina State University and other North 
        Carolina institutions to extend the offering of NC State's 
        undergraduate engineering instruction throughout the state. 
        Through Engineering Online, students can complete a site-based 
        pre-engineering program at Craven Community College, Johnston 
        Community College, UNC Asheville or UNC Wilmington, and later 
        transfer to NC State to complete their Bachelor's degree in 
        Engineering.

Closing

    We believe that this ``one-stop shop'' approach works well for the 
University, for student veterans, and for the military. But the primary 
reason we have taken this approach is because we care deeply about the 
whole soldier. (I use to the term ``soldier'' to represent all of the 
men and women in uniform, including airmen, marines, guardsmen, and 
sailors, as well as our veterans.) We care about providing them with 
access to a high-quality, affordable education in support of their 
personal or professional goals. We care about the families that they 
leave behind when they deploy or return to upon separation from 
service. We care about the kit and equipment they carry down range.
    Our efforts in this regard are not because a government agency 
requires us to do something. We are committed to supporting student 
veterans because of North Carolina's longstanding pride and support of 
the military. The service member who deploys may be our family member, 
friend or neighbor. The family that they leave behind may be our 
family. Higher education is crucial to the mission because the most 
important weapon that a service member carries is not an assault rifle, 
but rather his or her mind. They need to be able to adapt to changing 
environments, use critical thinking skills, learn a foreign language, 
employ negotiation skills, and apply conflict management lessons. Their 
kits and equipment must be the latest and greatest things because they 
need the ability to gather intelligence, execute a mission, and come 
home safely. And, when our service members make the transition from 
active duty to veterans in civilian society, we selfishly want them to 
remain in North Carolina for the long term. It is no secret that 
veterans make great employees, often start and grow successful small 
businesses, and make other economic and civic contributions, as well.
    The University of North Carolina can and should be a natural place 
of transition for veterans. They have earned an educational benefit, 
and that benefit can be the ticket to a brighter future. It is our duty 
to help make it happen.
    Our faculty report that they enjoy having veterans in their 
classes. I've attached to my testimony is a letter from a faculty 
member about her personal experience with service members in her 
classroom. As a group, student veterans attend classes regularly, take 
their assignments seriously, are attentive and provide a unique 
perspective in class discussions. All students benefit from their 
presence in the classroom.
    Finally, the University of North Carolina system is committed to 
partnering with the military because national security should be a 
priority for all us--not just for the less than one-half of one percent 
of us who serve in the armed forces. We can all do something to 
contribute. The faculty, staff and students of the University of North 
Carolina stand ready to do our part.
    Thank you, Mister Chairman. This concludes my testimony.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                  Prepared Statement of Curtis L. Coy

    Good morning, Mr. Chairman, Ranking Member Takano, and other 
Members of the Subcommittee, I am pleased to be here today to discuss 
the Department of Veterans Affairs' (VA) efforts to help Veterans 
achieve success in their educational endeavors. I will discuss 
implementation of the VetSuccess on Campus (VSOC) program, Public Law 
(P.L.) 112-249, and the ``Million Records Project'' undertaken through 
a partnership with the Student Veterans of America (SVA) and the 
National Student Clearinghouse (NSC).
    We are committed to ensuring that our Nation's Veterans, 
Servicemembers, Reservists, and qualifying dependents receiving VA 
education benefits have access to high-quality educational 
opportunities that will enhance their ability to meet their academic 
and career objectives. The expansion of the VSOC program, the outreach 
efforts enacted in accordance with P.L. 112-249, and the data being 
made available as a result of the Million Records initiative will help 
foster educational success and provide information on how Veterans are 
performing in their educational pursuits. My testimony today will 
highlight the achievements made through these efforts.

VetSuccess on Campus (VSOC)

    Beginning in 2009, VA's Vocational Rehabilitation and Employment 
(VR&E) Service has worked to implement and expand the VSOC program, 
deploying Vocational Rehabilitation Counselors (VRC) to select school 
locations to help students succeed during their transition from active 
duty to the college environment. VR&E Service continues to enhance all 
aspects of the VSOC program to increase its effectiveness. In fiscal 
year (FY) 2012, VA had a total of 32 VSOC campus locations. In FY 2013, 
62 additional VRCs were added to the VSOC program, which now includes 
79 VRCs located at 94 institutions of higher learning (IHL).
    The VSOC program and counselors, through education and career 
counseling (Title 38, Chapter 36) services, provide students seamless 
access to VA benefits and services and support their successful 
integration on college and university campuses.
    We are continuing our efforts to enhance support to Veterans on 
campus across a wide range of benefits and services. At each school 
site, VSOC counselors are working with their university partners to 
establish a student mentoring program. The goal of the mentoring 
program is to assist students with the challenges and/or stressors of 
entering or returning to an academic environment. VSOC counselors also 
collaborate with VA Medical Centers and campus counseling centers to 
ensure that students are aware of available mental health services and 
receive referrals as necessary to support their needs.
    In addition, the Corporation for National and Community Service has 
entered into an interagency agreement with VA to enhance supportive 
services for Veterans on campus. The VetSuccess AmeriCorps members are 
now supporting the VSOC counselor in conducting outreach events and 
coordinating on-campus activities and services based on student needs.
    VR&E Service is developing a strategy to determine the way ahead to 
best align resources for the optimal VSOC coverage at school sites with 
significant Veteran populations. This initiative is considering current 
VSOC sites, schools with interest in hosting future VSOC counselors, 
the number of Veterans attending schools under VA education programs, 
and schools' proximity to both VA health care facilities and military 
installations.

Carrying Out P.L. 112-249

    P.L. 112-249, enacted on January 10, 2013 which enhances and 
complements the provisions of Executive Order 13607, requires VA to 
develop a comprehensive policy to improve outreach and transparency to 
Veterans and Servicemembers through the provision of information on 
IHLs, and to deploy online tools to implement the policy. The law also 
requires VA to develop a centralized mechanism for tracking and 
publishing feedback from students and State Approving Agencies (SAA) 
regarding the quality of instruction at IHLs, their recruiting 
practices, and post-graduation employment placement. The law prohibits 
VA from approving any course offered by an educational institution that 
provides any commission, bonus, or other incentive payment based 
directly or indirectly on success in securing enrollments or financial 
aid. Finally, it requires VA to perform two market surveys related to 
academic readiness and commercially available, off-the-shelf, online 
comparison tools.
    VA partnered with the Department of Education (ED), Department of 
Defense, Consumer Finance Protection Bureau, Federal Trade Commission 
(FTC), Department of Justice (DOJ), and the National Association of 
State Approving Agencies to implement P.L. 112-249. As required by this 
law, VA submitted a report to Congress in April of 2013 that included a 
description of the comprehensive policy, VA's plan to implement the 
policy, and the results of the market surveys conducted to determine 
the availability of commercial off-the-shelf online tools.
    As a result of the required market surveys, VA began piloting an 
online assessment tool called CareerScope that gives prospective 
students career recommendations based on interests and aptitudes, and 
also provides information on related courses and training programs. 
Since August 2013, nearly 10,000 individuals have started or completed 
the free assessment. VA conducted another market survey for an online 
tool that provides prospective students with a list of providers of 
postsecondary education and training opportunities based on specific 
criteria selected by the individual. We discovered that many online 
tools provide much of the required information; however, none of the 
Web sites provide all of the data required by law. As a result, VA 
built an online tool that aggregates information from existing Web 
sites to provide all of the required data.
    The GI Bill Comparison Tool, which launched on February 4, 2014 
pursuant to the Executive Order and Public Law, helps Veterans become 
informed postsecondary education consumers. It displays median 
borrowing amounts, graduation rates, and loan-default rates by school, 
and it also indicates whether or not the school participates in the 
Yellow Ribbon Program or has agreed to adhere to the Principles of 
Excellence prescribed by Executive Order 13607. The tool allows 
beneficiaries to estimate the amount of funding they may receive under 
the Post-9/11 GI Bill. The tool was recently featured by Dr. Jill 
Biden on NBC's Today Show while celebrating the three-year anniversary 
of the First Lady's and Dr. Biden's Joining Forces Initiative. As of 
April 11, 2014, there have been 133,970 unique visitors who have used 
the tool.
    VA will continue exploring the development and refinement of the GI 
Bill Comparison Tool. Some of the new features and functionalities we 
are considering include improving the school/employer search 
capability, incorporating the ability to compare multiple schools side-
by-side, providing school-specific GI Bill benefit calculations, 
displaying feedback and/or complaints about a particular school, and 
displaying Veteran-specific outcome information, among many other 
features. These further enhancements would allow Veterans to compare 
schools across more dimensions and at a finer level of detail.
    Pursuant to Executive Order 13607, VA developed and launched the GI 
Bill Feedback System, a centralized online reporting system that 
allows Veterans, Servicemembers, Reservists, and eligible dependents to 
report negative experiences with educational institutions. Depending 
upon the nature of the complaint, VA may serve as an intermediary 
between the student and school to assist in the resolution of the 
complaint, or VA may launch a targeted risk-based review of the school. 
Complaints may also be reviewed by state and Federal law enforcement 
agencies, including DOJ. VA began accepting complaints through the GI 
Bill Feedback System when it was launched on January 30, 2014. As of 
April 13, 2014, there have been 16,701 individuals who have viewed the 
Feedback System's information Web page, 3,671 individuals who logged 
into the system, and 1,269 submitted complaints. In March 2014, VA 
began transmitting the complaints to the centralized FTC Consumer 
Sentinel database, where they are accessible by law enforcement 
agencies.
    VA has successfully completed several other activities needed to 
meet the requirements of Executive Order 13607 and P.L. 112-249 since 
January 2013. Specifically, VA updated the School Certifying Official 
handbook; published student outcome measure definitions on ED's College 
Navigator; registered the GI Bill Trademark; and began enforcing legal 
terms of use of the trademark.

Million Records Initiative

    VA established an agreement with SVA to create a new education 
completion database for Post-9/11 GI Bill and Montgomery GI Bill 
beneficiaries in order to study the outcomes of these VA education 
programs. VA also established an agreement with NSC to match VA's 
records and provide graduation and program completion information. The 
resulting data set contains information on Veteran beneficiaries 
enrolled in education programs from 2002 through 2013. NSC was an 
available source for tracking student completion rates at the 
individual level. After NSC matched the VA records, the de-identified 
results were released to SVA for analysis.
    On March 24, 2014, SVA released the ``Million Records Project'' 
report, a study which provides a baseline on Veteran student success. 
Overall, SVA found that Veterans have an education completion rate of 
52 percent, which is much higher than non-Veteran, non-traditional 
students who have a completion rate of 23 to 30 percent based on 
previous studies. Non-traditional students are defined as individuals 
who do not go into postsecondary education directly from high school; 
are financially independent; have dependents; are enrolled part-time; 
and are working full-time while attending school, among other criteria. 
These characteristics are shared by the majority of our Veteran 
students. SVA also highlighted the fact that approximately 9 out of 10 
Veterans initially earn degrees at the associate level or higher, with 
many Veterans going on to achieve higher levels of education. The 
results also indicated that a high percentage of Veterans are pursuing 
degrees in business, public service, health, science, and engineering.
    The results of the study show that continued research on Veteran 
graduation rates is imperative. Prior to the ``Million Records 
Project,'' accurate data on Veterans' academic outcomes has been nearly 
impossible to find, and the lack of data has caused confusion about 
Veteran success in the postsecondary education environment.
    The current study provides one of the most widely scaled 
perspectives on Veterans' academic achievement and provides an 
important baseline. The success of the public-private partnership 
between VA, SVA, and NSC provides a clear path forward for future data-
sharing and analysis. VA will continue working with them to expand and 
refine the research on Veterans' academic outcomes. Some of the future 
collaboration efforts being discussed include reviewing retention, 
persistence, and transfer rates, as well as adding data for subsequent 
academic years.

Conclusion

    VA has worked with key stakeholders to ensure that Veterans are 
utilizing their education benefits efficiently and successfully. 
Through ongoing interagency cooperation and student outreach, VA will 
continue its efforts to ensure Veterans are informed consumers and 
schools meet their obligations in providing education and training to 
this Nation's ``next greatest generation.''
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or the other Members of the Subcommittee 
may have.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        Statement for the Record

    From Northern Arizona University

    Northern Arizona University (NAU) is dedicated to providing a 
quality educational experience to the young men and women who have 
served our nation so honorably in the armed forces. Our veteran 
services are led by the NAU Office of Military and Veteran Affairs 
(OMVA), whose motto is, ``Serving the Heroes Studying Among Us!''
    NAU has received state and national recognition as a leader in 
higher education service and support to our student veterans and we 
appreciate the opportunity to share our experiences with the committee. 
NAU bases its service and support to our student veterans on national 
best practices. We are proud to be signatory to both the Principles of 
Excellence for Education, established in Executive Order 13607, and to 
the Department of Defense Voluntary Education Partnership Memorandum of 
Understanding. The Arizona Legislature established a separate process 
to incentivize attention to serving student veterans through the 
development of a process for postsecondary education institutions to be 
designated as Arizona Veterans Supportive Campuses, and we have proudly 
met that standard.
    Research and experience has revealed that the first year experience 
is the most critical in the successful transition of any new student. 
Such is true for new student veterans from the military, compounded by 
the need to adjust to the academic rigor and other demands of a 
university setting. This fall NAU will introduce Veteran Educational 
Transition Success (VETS), a third generation transition program 
comprised of the following seven initiatives:
    Orientation for New Student Veterans: All new student veterans and 
their loved ones are strongly encouraged to attend a new student 
veteran in-processing session just prior to fall classes. The session 
addresses VA benefits, on- and off-campus resources, academic 
resources, and the Student Veterans of America (SVA) club activities. 
In addition, volunteer professors will offer tutorials on college 
writing and communication, library navigation, and how to establish a 
personal finance plan.
    Transition Checklist: As soon an incoming student veteran is 
identified, OMVA, through its one-stop Veteran Student Center (VSC), 
reaches out to the student with a welcome letter and the transition 
checklist that provides a detailed step-by-step guide that serves as 
the veteran's road map to a successful transition to NAU.
    Math Prep: It may have been awhile since a new student veteran has 
taken a math class. NAU offers a free, online, six week Summer Bridge 
program, with or without coaching support, designed to help ease new 
student veterans back into math, reduce math anxiety, and/or to improve 
math placement scores.
    Veteran's First-year Cohort Transition Seminar: All student 
veterans new to campus are strongly encouraged to enroll in the 
academically accredited and VA accepted 3-credit hour first year cohort 
transition seminar. The average student veteran at NAU is 28 years old, 
has 15-30 credit hours from military training and technically qualifies 
as a transfer student. Student veterans arrive with limited to no 
exposure to a college or university classroom or environment. 
Therefore, a transition course is offered to veterans taught by 
veterans, introducing the new students to the skills and resources 
required to succeed within a rigorous academic environment. The course 
is presented in a traditional classroom with an online component that 
allows students to explore potential career opportunities following 
graduation. The course's focus on degree determination and future 
career paths increases the individual commitment toward student 
success, retention and graduation.
    College-Based (non-residency) Learning Community (CBLC): All 
students enrolled in the transition seminar also participate in the 
student veteran cohort CBLC. New student veterans arrive on campus with 
much anxiety about fitting into the campus culture. The CBLC is 
sponsored by the NAU chapter of the Student Veterans of America and 
supports the new student veteran in transition to NAU through social, 
informational and recreational activities alongside other student 
veterans on campus. Providing a community of fellow veterans they can 
relate to, trust, and connect with is key to a positive, engaging and 
successful experience.
    Student Success Coaching Program (SSCP): The Student Success 
Coaching Program (SSCP) is designed to empower our new student veterans 
through a voluntary coaching relationship with an NAU employee or 
retiree who also is a veteran. Coaches are professionally trained 
volunteers who meet with new student veterans once a week to offer 
life-coaching tools and resources.
    Veteran Peer Mentorship: In collaboration with the Transfer and 
Commuter Connections Center, we extend to new veterans the opportunity 
to work with a trained peer mentor who also is a student veteran. 
Experience and best practices have validated the personal contact of a 
peer mentor in aiding student veteran transition. The mentor and 
student often discuss topics that may arise up in a group session. This 
program serves as an important early alert system to ensure all 
veterans receive personal, medical, academic, career and financial 
advice before challenges become overwhelming.
    These initiatives are a culmination of research and experience over 
the last four years during which we have incorporated national best 
practices, veteran feedback and collaboration with a myriad of on- and 
off-campus resources to develop a comprehensive student veteran 
transition program. Challenges remain to successfully serve our veteran 
population and we continuously strive to improve both our services and 
data collection in this area. One area in which federal assistance 
would be appreciated is the timely processing of financial aid for 
veteran students. Approximately one-half of our veteran students at NAU 
are married and have children. Supporting a family takes an additional 
toll on students struggling to meet financial obligations and the 
current process for awarding veterans federal financial aid averages 6-
8 weeks.
    Thank you for the opportunity to present information on this 
important student population. I hope I have demonstrated Northern 
Arizona University's dedication to providing comprehensive services 
necessary to help our veterans succeed as they move into their next 
career. We will continue our work to increase the number of veterans 
seeking and achieving a postsecondary education degree. If we can offer 
any additional information or clarification please feel free to contact 
LTC (ret) Andrew Griffin, Ed.D., Director of the Office of Military and 
Veteran Affairs at (928) 523-8555 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e4a58a80968193caa3968d82828d8aa48a8591ca818091ca">[email&#160;protected]</a>

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
